<html>
<title> - THE EVERGLADES: PROTECTING NATURAL TREASURES THROUGH INTERNATIONAL ORGANIZATIONS</title>
<body><pre>[Senate Hearing 110-477]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-477
 
  THE EVERGLADES: PROTECTING NATURAL TREASURES THROUGH INTERNATIONAL 
                             ORGANIZATIONS

=======================================================================


                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON INTERNATIONAL OPERATIONS AND
               ORGANIZATIONS, DEMOCRACY AND HUMAN RIGHTS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 19, 2007

                               __________

       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html



                     U.S. GOVERNMENT PRINTING OFFICE

44-134 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       NORM COLEMAN, Minnesota
BARBARA BOXER, California            BOB CORKER, Tennessee
BILL NELSON, Florida                 JOHN E. SUNUNU, New Hampshire
BARACK OBAMA, Illinois               GEORGE V. VOINOVICH, Ohio
ROBERT MENENDEZ, New Jersey          LISA MURKOWSKI, Alaska
BENJAMIN L. CARDIN, Maryland         JIM DeMINT, South Carolina
ROBERT P. CASEY, Jr., Pennsylvania   JOHNNY ISAKSON, Georgia
JIM WEBB, Virginia                   DAVID VITTER, Louisiana
                   Antony J. Blinken, Staff Director
            Kenneth A. Myers, Jr., Republican Staff Director

                                 ------                                

              SUBCOMMITTEE ON INTERNATIONAL OPERATIONS AND
               ORGANIZATIONS, DEMOCRACY AND HUMAN RIGHTS

                     BILL NELSON, Florida, Chairman

RUSSELL D. FEINGOLD, Wisconsin       DAVID VITTER, Louisiana
ROBERT MENENDEZ, New Jersey          GEORGE V. VOINOVICH, Ohio
ROBERT P. CASEY, Jr., Pennsylvania   JIM DeMINT, South Carolina
JIM WEBB, Virginia                   JOHNNY ISAKSON, Georgia

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page

Anderson, Gerald C., Deputy Assistant Secretary, Bureau of 
  International Organization Affairs, Department of State, 
  Washington, DC.................................................    17
    Prepared statement...........................................    23
Mittal, Anu K., Director, Natural Resources and Environmental 
  Team, U.S. Government Accountability Office, Washington, DC....    24
    Prepared statement...........................................    26
Nelson, Hon. Bill, U.S. Senator From Florida, opening statement..     1
    Prepared statement...........................................     2
Willens, Todd, Deputy Assistant Secretary for Fish and Wildlife 
  and Parks, Department of the Interior, Washington, DC..........     3
    Prepared statement...........................................    15

              Additional Material Submitted for the Record

Attachments submitted by Mr. Willens:
    UNESCO June 24, 2007, Press Release..........................    36
    Everglades National Park 2007 Site Monitoring Report.........    36
    Everglades Restoration Timetable--Annex to State Party Site 
      Monitoring Report..........................................    40
    World Heritage Committee Decision............................    48

                                 (iii)


  THE EVERGLADES: PROTECTING NATURAL TREASURES THROUGH INTERNATIONAL 
                             ORGANIZATIONS

                              ----------                              


                     WEDNESDAY, SEPTEMBER 19, 2007

                           U.S. Senate,    
  Subcommittee on International Operations 
                                        and
         Organizations, Democracy and Human Rights,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Bill Nelson, 
chairman of the subcommittee, presiding.
    Present: Senator Nelson.

   OPENING STATEMENT OF HON. BILL NELSON, U.S. SENATOR FROM 
                            FLORIDA

    Senator Bill Nelson. Good afternoon. Thank you for coming. 
We are convening this Subcommittee of the Senate Foreign 
Relations Committee which has jurisdiction over the United 
Nations.
    And we're here to determine and evaluate the strong 
implications of the removal of the Florida Everglades, which is 
a critical habitat, a critical ecosystem on Planet Earth from 
the list of endangered heritage, to which it was so designated 
in 1993 by the World Heritage Committee. It was designated as 
an exceptional World Heritage Site by the United Nations in 
1979, and then again a Wetland of International Importance in 
1987.
    And, we're here to examine the question of how it was 
delisted from the United Nations list of sites that are in 
danger. It is in grave danger and it is suffering from years of 
neglect and indeed over a half century of changing the way that 
Mother Nature deals with the handling of this ecosystem. And 
now the attempts are being made to correct how mankind has 
intervened with Mother Nature.
    And so we now come to the question of the administration 
having removed the Florida Everglades National Park from the 
World Heritage list of sites in danger. And now, the very first 
of authorization projects to implement what was passed in the 
year 2000, referred to as CERP, the Comprehensive Everglades 
Restoration Plan, and for the first time, the authorization of 
projects to do that, and lo and behold, the President is 
threatening to veto the Water Resources Development Act, which 
contains two vital projects to the Everglades restoration and 
its restoration plan.
    And then we're in an era in which, lo and behold, a major 
Presidential contender yesterday, in Florida, refused to rule 
out drilling for oil in the Everglades.
    Now, if all of this is taken into context, it seems to 
suggest that there is no commitment to restoration. And we have 
to be concerned about the matter that we're going to examine 
today--Is this an administration which is faltering in its 
commitment to restore the Everglades?
    Now, first it removed the Everglades from the World 
Heritage list of sites in danger. So, if--I want to hold up 
these two reports. OK, this is a report that was done in May 
2007, the eighth paragraph reads, ``It decides to retain 
Everglades National Park, United States of America on the list 
of the World Heritage endangered.'' Two months later, the bulk 
of the report had not been changed, but one word had been 
changed in the conclusion. No. 8, ``Decides to remove 
Everglades National Park, United States of America from the 
list of World Heritage endangered.'' It changed four letters in 
the word, by changing ``retain'' to ``remove'' and thus 
completely undercut those of us who are desperately trying to 
restore this incredible ecosystem called the Everglades.
    I am going to insert in the record an opening statement and 
we will insert into the record the written testimony of each of 
the three witnesses today.
    [The prepared statement of Senator Nelson follows:]

   Prepared Statement of Hon. Bill Nelson, U.S. Senator From Florida

    Good afternoon and welcome to today's hearing. Today the committee 
will examine the removal of the Florida Everglades from the U.N.'s list 
of World Heritage Sites in Danger, and how we can better protect our 
natural treasures through our membership in international 
organizations.
    We are joined today by Deputy Assistant Secretary of State Gerald 
Anderson, Deputy Assistant Secretary of Interior Todd Willens, and the 
Director of the Government Accountability Office's Natural Resources 
and Environment Team, Ms. Anu Mittal.
    I would like to begin by thanking all of our witnesses for taking 
the time to come and speak with us today about this vitally important 
issue.
    Ladies and gentlemen, we are here to discuss one of the most unique 
ecosystems in the world--a landscape so exceptional that it was 
designated:

  <bullet> An International Biosphere Reserve in 1976;
  <bullet> A World Heritage Site by the United Nations in 1979;
  <bullet> A Wetland of International Importance in 1987.

    Today, this ecosystem is endangered by actions that have so 
disrupted the cycle of nature that according to our own National Park 
Service, at least 15 species of fauna indigenous to it are endangered.
    This ecosystem, the Florida Everglades, was designated a National 
Park in 1947. According to the National Park Service, ``A 93-percent 
drop in the population of wading birds nesting in the Everglades over 
the last 60 years, toxic levels of mercury found in all levels of the 
food chain, the die-off of sea grass in Florida Bay, and endangered 
species such as the wood stork and Florida panther are all indicators 
that something is seriously wrong in the ecosystem of South Florida.''
    In 1993, following extensive damage from Hurricane Andrew, the 
Everglades were added to the list of World Heritage in Danger. That 
list is maintained by the United Nations Educational, Scientific and 
Cultural Organization, commonly known as UNESCO.
    In 1996, in response to growing signs of ecosystem deterioration, 
Congress formally established the South Florida Ecosystem Restoration 
Task Force. The Task Force, which includes representatives from 
relevant Federal agencies, State and local governments, and Native 
American tribes, was charged with coordinating restoration activities 
in the Everglades.
    In 2000, the Comprehensive Everglades Restoration Plan was enacted. 
The plan has been described as the largest ecosystem restoration 
project in the world. The international significance of the project 
cannot be denied.
    Yet today, while over 220 restoration projects have been 
identified, only 43 have been fully implemented. And according to the 
GAO, from which we will hear today, the most critical of these 
projects, among those identified in the 2000 Comprehensive Everglades 
Restoration Plan (CERP), are nowhere near being completed.
    In fact, while the Federal Government pays lip service to restoring 
the Everglades, it has dedicated very few of the resources it promised 
to restore the Everglades.
    According to a recent National Academy of Sciences report, 
``Federal expenditures [on the Comprehensive Everglades Restoration 
Plan] from 2005 to 2009 are expected to be only 21 percent'' of a 
multibillion dollar program the Federal Government committed to funding 
half of. As of now, the Federal Government is over a billion dollars 
short in its contributions.
    For the first time in 7 years, Congress has an opportunity to pass 
the Water Resources Development Act which provides $2 billion in 
authorizations for the Everglades and moves forward the first two 
restoration projects since 2000--the Indian River Lagoon and Picayune 
Strand. Yet the President, who claims to support the restoration of the 
Everglades has threatened to veto the bill.
    Even more troubling, it appears that our Federal Government is 
working to actively undermine the Everglades through its membership in 
international organizations. This year, despite the lack of progress on 
Everglades restoration, the failure to meet the Park Service's own 
restoration benchmarks, and in spite of the opinion of numerous 
scientific experts that the Everglades remain endangered, the Bush 
administration sent a delegation to the May 2007 World Heritage 
Committee meeting that recommended that the still endangered Everglades 
be removed from the list of sites in danger.
    As I wrote to Secretary Kempthorne this summer, there are some very 
legitimate concerns raised by this decision and the events surrounding 
it that I hope to explore here today.
    First, how did this happen? How is it that an endangered World 
Heritage site for which restoration projects have fallen far behind 
schedule can be reasonably considered by the U.S. Government to be a 
legitimate candidate for removal from this list?
    Second, who is responsible for this decision? Was this the work of 
an individual, or is this decision in line with official guidance from 
the administration? Either way, how can we reverse this ill conceived 
action?
    Third, how do we ensure that sound, scientific judgment forms the 
basis for any and all future such decisions?
    And finally, how can the United States work within international 
organizations to protect sites of significant world heritage such as 
the Everglades by establishing procedures to ensure they are not 
prematurely removed from such an important list.

    Senator Nelson. So, what I am going to do, is get right 
into the issue and examine it.
    And, so Mr. Willens--and we are pleased to have here today 
Mr. Todd Willens, who is Deputy Assistant Secretary for Fish 
and Wildlife and Parks. Keep those up--I want to refer to the 
change of that word, to that word, from May to July. Mr. 
Willens, I would like you to explain who in the U.S. delegation 
was responsible for the change?

STATEMENT OF TODD WILLENS, DEPUTY ASSISTANT SECRETARY FOR FISH 
AND WILDLIFE AND PARKS, DEPARTMENT OF THE INTERIOR, WASHINGTON, 
                               DC

    Mr. Willens. Well, the change itself was the responsibility 
of the World Heritage Committee. In May, there was a draft 
decision, and as with all draft decisions, they are circulated 
amongst the parties in preparation for the meeting that took 
place in June in New Zealand. And the draft, at that time--as 
it is reflected there in the May 2007 exhibit--was to retain.
    As the Committee met, reviewed the status reports, and 
consulted amongst themselves, and the United States, it was the 
decision by the Committee to change the last word from 
``retain'' to ``remove'' the Everglades, as a result that the 
Committee was satisfied that the purposes of listing the site 
on the in danger list had been met.
    Senator Bill Nelson. Mr. Willens, now you're talking about 
the Committee. But on July 31, you told Craig Pitman of the St. 
Petersburg Times, and I quote, ``I changed the last sentence of 
our report and said we wanted to be taken off.''
    Mr. Willens. We proposed it, and the Committee ratified it. 
We can't do anything just by ourselves, the Committee itself 
agreed unanimously to make that change.
    Senator Bill Nelson. Mr. Willens, is it not true, in order 
to change any item on the list of in danger sites, that it 
takes only the country that is the host country to that in 
danger site to change that?
    Mr. Willens. No; it requires a vote of the Committee, and 
there are 21 members, and we are only one member of that 
Committee, and it requires the--I don't know if it's two-thirds 
of the majority of the Committee, but it requires the 
Committee--and they like to do things, they prefer to do things 
by consensus, as they did in this case.
    Senator Bill Nelson. To the contrary, isn't it true that no 
site will be delisted, taken off the list of in danger sites, 
unless the host country takes the action to strike it off?
    Mr. Willens. I believe as part of collegiality, the 
Committee looks to give deference to the range country. And, I 
believe that is a weighing factor. I'm not aware that that is 
an absolute requirement, it is something that we evaluate, the 
United States, as we review and we look at other issues, where 
does the range State come in on an issue. And, in this case, I 
do believe it was important for the Committee to hear from the 
United States.
    Senator Bill Nelson. And, I want the record to show that 
clearly the United Nations Committee will not take an item off 
the list, and as a matter of courtesy, for the host country, 
unless that host country requests it. Is that what you did? You 
request that it be taken off the in danger list?
    Mr. Willens. We did.
    Senator Bill Nelson. We.
    Mr. Willens. Yes.
    Senator Bill Nelson. You did?
    Mr. Willens. The delegation as a whole, and the 
administration requested this.
    Senator Bill Nelson. Who was speaking for the 
administration at the time?
    Mr. Willens. I believe that I had the microphone at the 
time, and made the statement.
    Senator Bill Nelson. OK, and what was the reason that you 
decided to make that change within a 2-month period, after this 
report had been issued, with nothing having changed in the 
report, except that conclusion?
    Mr. Willens. We arrived in Christchurch for the meeting, 
and we were approached by several other delegations who were on 
the Committee. They were--as this issue was on the first day 
and one of the first items of substance to come up, a number of 
other countries had reviewed the information and the record 
that led up to this, since this had been on the in danger list 
since 1993, and felt that with our leadership on providing 
benchmarks and being responsive to the request of the Committee 
for numerous years, that they noted that for previous Committee 
meetings, when Everglades had been presented and discussed as 
how we're making progress, and how projects are progressing, 
there had been numerous statements prior to this meeting that 
members of the Committee felt that we were approaching--and 
even in some cases, some believed that it should have been 
removed at previous meetings of the Committee.
    I think it was a culmination of those views and discussions 
that took place again, and presented themselves to us when we 
arrived. And that it was fairly clear that it was the sentiment 
of the Committee, with an international perspective, that they 
felt we had responded to the requirements, and jumped through 
the hoops, so to speak, that they had wanted us to do. While 
Everglades restoration was not completed, and that we still 
have a great deal to go forward with, again it was the purpose 
of listing in danger for a country to be responsive, set a plan 
forward, completion is not a requirement of getting off the in 
danger list. And the Committee, therefore, moved with this.
    Senator Bill Nelson. How do you say that progress has been 
made since CERP was set up, when in fact, not one project has 
been authorized, which we're desperately trying to do with the 
current Water Resources Development bill?
    Mr. Willens. Well, as the GAO report states, that of the 
220 separate Everglades restoration projects they looked at, 43 
have been completed, 107 are underway, and 26 are in design. 
Now, while there is still a large portion, and important 
projects still that need to be done, that the commitment by the 
United States, and that there has been work done, was 
satisfying to the Committee.
    Senator Bill Nelson. Forty-three have been done, but are 
you aware that most of those 43 were done prior to, or given 
the authorization for, prior to the comprehensive Everglades 
Restoration Plan being enacted in 2000, and not one has been 
authorized since?
    Mr. Willens. One hundred and seven are underway. And the 
43, while they were done prior to CERP, they still are 
important to the ecological restoration of the Everglades.
    Senator Bill Nelson. Let me show you why you're wrong. Hold 
out the visual, OK. You'll hear a word called, a term called 
``mod waters'' and that refers to this water that comes 
naturally from the north into Lake Okeechobee, and then under 
Mother Nature flows south, and then out into Florida Bay and 
into the Gulf of Mexico.
    That water is blocked because of what mankind has done, 
draining the water off to tide, and then in the 1920s, erecting 
a dike called Tamiami Trail, which serves as a dike. The 
modification of the waters is an effort to get the water being 
retained north of the dike, the Tamiami Trail, to the 
Everglades National Park. The site on the in danger list is the 
Everglades National Park. That is this site, and this is the 
site that is starved for water, because the water is being held 
back beyond this dike called Tamiami Trail.
    Now, those are the projects--in order to accomplish that--
that have not been completed. This is an environmentally 
endangered site that is in distress and for you and the 
administration and--were you, in fact, ordered by any one of 
your superiors to take this action?
    Mr. Willens. No.
    Senator Bill Nelson. Upon what authority did you feel like 
that you could represent the United States?
    Mr. Willens. As cohead of the delegation to the World 
Heritage Committee. And, as part of that, we consulted with our 
delegation, which comprised our experts from the National Park 
Service and we had our reports that were submitted in February, 
our scientific reports, and plenty of information available to 
us at the meeting.
    Senator Bill Nelson. Did the Secretary of the Interior or 
the Deputy Secretary send instructions to you to take this off 
the list?
    Mr. Willens. No.
    Senator Bill Nelson. So, you felt like it was your 
authority to make this decision for the United States of 
America?
    Mr. Willens. Well, we believe that authority rested in the 
previous work that the previous Committees had done. That there 
was nothing secret nor was this not the ultimate goal of 
listing it as in danger. As you look back in the history of the 
previous reports and comments of the Committee, they had always 
hoped--and the goal of putting as in danger was always removal. 
And while we realized that earlier than we had expected, that 
many had thought it would still be a couple of years going 
forward that the Committee would think that we had met those 
goals, it was apparent to us that it was unanimous, that the 
Committee was satisfied with their evaluation, and therefore 
took the action that they did.
    Senator Bill Nelson. Are you aware that so many of the 
goals that had a deadline that would already have been achieved 
have mostly either been considerably delayed in this project, 
or it is yet to be determined when these goals would be 
reached?
    Mr. Willens. We--the Committee and the United States is 
aware that we are behind on some of the timelines that related 
to the projects, but that the commitment remains, as 
represented in the President's budget, and represented in our 
support for the language, specific to Everglades in the WRDA.
    Senator Bill Nelson. Mr. Willens, why don't--for the 
record--in your position as Deputy Assistant Secretary, why 
don't you outline your responsibilities briefly, in this 
position?
    Mr. Willens. The Office of the Assistant Secretary for Fish 
and Wildlife and Parks is delegated authority by the Secretary 
to oversee the Fish and Wildlife Service, and the National Park 
Service from policy and management. The Office of the Assistant 
Secretary coordinates and consults with the Director of the 
Fish and Wildlife Service, and the Director of the National 
Park Service on all issues, regarding policy, budget and 
management, and that we report to the Secretary the progress 
and oversight of those Departments, and work with those 
agencies to further the policies of the administration in 
compliance with Federal law.
    And, my job, as Deputy Assistant Secretary, is to aid the 
Assistant Secretary in that job. And my portfolio is 
international issues--whether it's Fish and Wildlife Service 
and National Park Service, and outside of that, my focus is 
Fish and Wildlife Service management related to nonendangered 
species issues.
    Senator Bill Nelson. And, when you said that the other 
Member Nations concurred, is it not true that had the United 
States stated that it needed more time to evaluate the progress 
on the benchmarks, that no country at that meeting would have 
disagreed?
    Mr. Willens. It's probable. We did not--that did not 
happen, so I can't answer that, you know, affirm that.
    Senator Bill Nelson. That has been the history of that 
list.
    Mr. Willens. Historically, yes.
    Senator Bill Nelson. That's correct. That is the standard 
operating procedure of that Committee.
    Would you describe your work experience as a congressional 
member of staff as well as your position as a lobbyist?
    Mr. Willens. What details would you like on that?
    Senator Bill Nelson. Well, for whom did you work in the 
Congress?
    Mr. Willens. I've had several jobs in the House of 
Representatives. I was the senior policy director for the then-
House Resources Committee. Before that, I was the legislative 
director and legislative assistant and other positions for 
Congressman Richard Pombo, and prior to that, I was a 
legislative aide for Congressman Jerry Lewis.
    Senator Bill Nelson. And, Congressman Pombo, was he the 
chairman of that committee?
    Mr. Willens. At the time, yes. When I was senior policy 
director.
    Senator Bill Nelson. And then, since leaving there, can you 
outline your position as a lobbyist?
    Mr. Willens. I have not been a lobbyist since leaving my 
job with House Resources Committee. I was a lobbyist before 
that time; I was a lobbyist for Feld Entertainment, Inc., and 
represented them on various issues--Federal, State, 
international and local levels.
    Senator Bill Nelson. In your time working for 
Representative Pombo, were you involved in proposals that came 
out of his office to sell various National Parks?
    Mr. Willens. I was on the committee when the internal 
review of how we better manage our National Parks was 
conducted, and yes, I am aware that that was a draft of a staff 
recommendation that had been circulated, and had gotten leaked 
out. But that's all that was, and I was in the policy shop at 
the time that that had happened.
    Senator Bill Nelson. Do you have any formal training in 
park management or the environmental sciences, wildlife 
management, forestry, and other sciences?
    Mr. Willens. Beyond policy? No.
    Senator Bill Nelson. Do you have any part of your formal 
education that would qualify you as a scientific expert?
    Mr. Willens. No, sir.
    Senator Bill Nelson. And how long have you held your 
current position at Interior?
    Mr. Willens. October 8 will be 1 year.
    Senator Bill Nelson. What is your relationship between you 
and Ambassador Oliver, in protocol terms? Were you cochairs?
    Mr. Willens. Yes; coheads of the delegation.
    Senator Bill Nelson. And prior to the trip to New Zealand, 
had you been a--ever been a part of an official U.S. delegation 
to the World Heritage Committee?
    Mr. Willens. No.
    Senator Bill Nelson. Have you ever led or co-led any 
official international delegation to a multilateral body, such 
as UNESCO, prior to this?
    Mr. Willens. Yes; I had actually--earlier in the month of 
June, I had head the United States delegation to CITES COP 14 
in The Hague, which is the 14th Conference of the Parties to 
Convention on International Trade in Endangered Species of Wild 
Fauna and Flora.
    Senator Bill Nelson. Can you explain for the committee's 
record, how the Interior Department is involved ahead of time, 
in determining what positions the U.S. delegation might take at 
a WHC meeting?
    Mr. Willens. In cooperation with State Department and other 
interested entities, dependent on the sites that are coming up, 
we look at the agenda items that are coming forward, we meet 
and collaborate via e-mail, phone and personal meetings to 
coordinate positions, and we do the same thing when we are at 
the meeting itself, as issues do tend to pop up while you're 
there, as we had in the case of the Everglades.
    Senator Bill Nelson. Was the decision to recommend that the 
Everglades be removed from the list made ahead of time?
    Mr. Willens. No.
    Senator Bill Nelson. When was it made?
    Mr. Willens. It was made while we were at the meeting, when 
the issue was presented to us.
    Senator Bill Nelson. And, that decision, as you stated to 
that newspaper, was made by you?
    Mr. Willens. No; the decision was made by the delegation. 
Ambassador Oliver and I had made the decision together, after 
consulting our delegation, comprised of National Park Service 
and others.
    Senator Bill Nelson. So, you were sent to New Zealand with 
instructions to remove the Everglades from the danger list?
    Mr. Willens. No, sir.
    Senator Bill Nelson. What guidance does one normally get in 
coleading a delegation such as that, before recommending that a 
site be removed from the list?
    Mr. Willens. I don't think I understand the question, as to 
``what one gets?''
    Senator Bill Nelson. Well, for example, do you reach out to 
the National Park Service?
    Mr. Willens. Yes; and specific to removal of this--can you 
repeat the question again? I don't think I understood it.
    Senator Bill Nelson. Did you--prior to making this decision 
to remove the Florida Everglades from the in danger list--reach 
out to any other parts of the Government to get their opinion?
    Mr. Willens. No; we had our Park Service Professional Staff 
with us, on the delegation, in State Department, and we 
consulted amongst ourselves. There was a challenge of a 
significant time change. We were 14 or 17 hours ahead, and we 
believed we had the information that we needed in front of us, 
because the issue has a long history, and we were able to make 
the right decision, that we ended up making, with the 
information that we had with us in New Zealand.
    Senator Bill Nelson. So, what you're telling us is, there 
was a representative of the U.S. Park Service that was a part 
of your delegation that concurred in the decision to delist the 
Everglades from the endangered list?
    Mr. Willens. There were two, yes.
    Senator Bill Nelson. What were their names?
    Mr. Willens. One is Stephen Morris and the other is 
Jonathan Putnam.
    Senator Bill Nelson. And what are their positions?
    Mr. Willens. They are in the international office, 
International Affairs Office of the National Park Service, and 
are responsible for management of the World Heritage Program.
    Senator Bill Nelson. And they concurred in your decision?
    Mr. Willens. That's my understanding, yes.
    Senator Bill Nelson. Did they tell you that they had 
instructions from the Director--the National Director of Parks?
    Senator Bill Nelson. To delist the Everglades National 
Park?
    Mr. Willens. No; no one did, sir. It was an issue that 
presented itself once we had arrived.
    Senator Bill Nelson. And they did not call back to the head 
of the National Park Service?
    Mr. Willens. Prior to the decision? I'm not aware that they 
did.
    Senator Bill Nelson. And for the record, would you state 
again what were their positions in the National Park Service?
    Mr. Willens. They were--I don't have the exact titles in 
front of me, I work closely with them, and I'm afraid I don't 
know their exact titles, which--but substancewise, they are the 
chief advisors when it comes to World Heritage Committee and 
World Heritage programs, and our 20 World Heritage sites that 
we have listed.
    Senator Bill Nelson. And how about, did you have any 
recommendations from the scientific, technical community? The 
IUCN?
    Mr. Willens. Yes; IUCN is actually the ones that did the 
draft of the decision, as they do with most of the decisions. 
IUCN at the Committee presented, opened the discussion on 
Everglades, as it does with any in danger site, presents its 
current status, and scientific information and dialogue that's 
gone on since the last year. And IUCN gave its presentation, 
and I believe--IUCN's recommendation from the table was 
consistent with the draft that you had up, the May exhibit, was 
they believe that the site should be retained.
    Senator Bill Nelson. Were there any other people whose 
opinion you sought? Outside of the Park Service?
    Mr. Willens. The other countries that were part of the 
World Heritage Committee.
    Senator Bill Nelson. But we've already stated, and you 
admitted, that had the United States not requested this, that 
there would not have been any concurrence by the other members 
of the Committee. So, I'm talking about, were there any other 
people involved in the preparation of that document on which 
the last word on the conclusion page changed, completely 
reversed. Was there anybody else whose opinion you sought?
    Mr. Willens. Not that I'm aware of. There were numerous 
conversations at the World Heritage Committee, when the issue 
presented itself, as I stated, with other delegations and our 
Park Service delegation, and the World Heritage Committee 
itself, or people that we had spoken to on these issues.
    Senator Bill Nelson. It's my understanding that it was 
traditional standard procedure for the Park Service to provide 
a recommendation to retain the Everglades on the list. What 
changed?
    Mr. Willens. We had supported the status quo of it 
remaining on the in danger list, and that was our position. We 
didn't believe we needed to reevaluate the position of the 
status quo going in, therefore we did not reevaluate the status 
quo of it being on the in danger list. The Park Service, nor 
the Department or myself took a position of retaining that, or 
taking anything else in advance. So, the status quo was the 
case, but it wasn't an issue that we had specifically 
identified for reevaluation or debate, prior to going to the 
World Heritage meeting.
    So, the Park Service's position, as the United States was, 
status quo, which was retaining, and with the information we 
had, it wasn't until we arrived in New Zealand, had met with 
the other bodies, and they had related their concerns and 
support for the United States, and compliments for the work and 
efforts that had been underway at Everglades that we had to 
reconsider and evaluate the status of the site.
    Senator Bill Nelson. When I asked you the question about 
your lobbying activities, prior to being on--and I don't know 
if there were any after--being on the congressional committee, 
and an assistant to Congressman Pombo, I had asked you what you 
represented. And you named something that did not seem to have 
a name connected with any environmental subject matter. Would 
you tell us about that?
    Mr. Willens. Well, Feld Entertainment is a company, I was 
the vice president, an officer in the company, in charge of 
Government relations. And Feld Entertainment held a number of 
family entertainment properties, such as Ringling Brothers and 
Barnum & Bailey Circus, they have an Elephant Conservation 
Center in your home State, outside of the Tampa area, and they 
also had productions that traveled the world on ice shows, as 
well as the production of Siegfried & Roy in Vegas.
    I had the conservation work portfolio, the conservation 
work on behalf of them was really species-oriented, since they 
had a number of species within their possession.
    Senator Bill Nelson. So, your lobbying activities were in 
the entertainment field, as opposed to in the environmental 
field?
    Mr. Willens. No; it was environmental and agriculture, it 
was an interesting mix that at the time their priorities were 
habitat conservation and species protection, as well as animal 
welfare, and those were issues that they had asked me to 
represent them on, as their vice president.
    Senator Bill Nelson. It has been reported in several 
newspapers that while you were a congressional staffer, that 
you had a relationship with lobbyist Jack Abramoff. Can you 
tell the committee about that relationship?
    Mr. Willens. I've never met the man.
    Senator Bill Nelson. So, you have never had any kind, and 
those are incorrect statements that have been in the public 
sphere?
    Mr. Willens. Yes. I've seen those statements, they give the 
false perception that as a staffer--I believe it was his firm, 
or possibly something affiliated with him that I was connected 
to the case. The actual record states, which is on file with 
the Ethics Office and Travel Reporting Office at the House of 
Representatives, which I did and complied with, that I was 
invited by the Governor of the CNMI, the Commonwealth of the 
Northern Marianas Islands, to visit the island and look at 
issues that were pertinent at the time, in 1997, before the 
House Resources Committee, and I did, I joined that STAFFDEL, 
that was hosted by the Commonwealth. And I believe at that 
time, Jack Abramoff had them as a client, and that's how that 
gets misinterpreted, sir.
    Senator Bill Nelson. I see. And when you were interviewing 
to go into the Department of Interior, did the Department of 
Interior representative ask you about your relationship with 
Mr. Abramoff before you began to work there?
    Mr. Willens. I don't believe there was ever a need to, I 
don't think it ever came up.
    Senator Bill Nelson. I see. So, they didn't ask you that 
question, even though it had been in the public sphere, so that 
you could clear it up, as you have now?
    Mr. Willens. I don't remember that being a question, or as 
pertinent to my employment.
    Senator Bill Nelson. Are you familiar with the specific 
projects that make up this collective effort to restore the 
Everglades?
    Mr. Willens. Yes. I'm familiar with it. I think it's a 
great endeavor, I think the partnership that has been put in 
force is a great partnership. And, with any partnership, 
there's differences of opinions, and there's challenges, and 
there's struggles and fits and starts as the Everglades has. 
And, the administration fully supports the Everglades 
Restoration Project. We look forward to continuing working with 
you and the other members of the delegation in Congress, 
especially as we have budget requests sitting before Congress, 
and we have concerns that the appropriations levels, currently, 
as have come out of the House, are not to that level. And that 
we also have a $35 million shortfall coming out the Senate, I 
believe, Energy and Water Subcommittee, that's $35 million 
short of what we need for Everglades restoration, that the 
President requested. So, we look forward to working with you to 
close these gaps, and get this job done, sir.
    Senator Bill Nelson. The Committee was informed by the U.S. 
Ambassador to UNESCO that only the United States could have 
made this decision on the Everglades, because the WHC, by 
tradition, reserves these recommendations only for the State in 
whose boundaries the site in question is located. Now, after 
what all you've said, do you agree that that is the case?
    Mr. Willens. I would have to look at her comment and talk 
to her, because I believe she's correct in what she's saying, 
however, I have not looked at the history of the World Heritage 
Committee to say with absolute, that a country has to be there 
and make a motion or support it one way or the other, because I 
believe there are cases where countries don't have the 
resources to represent themselves or let their positions known 
to the World Heritage Committee, so I don't want to say with 
absolute, and we can get back to you in response to that, in 
writing, after we can do some review, to make sure that that's 
the case.
    Senator Bill Nelson. You participated in one of these 
meetings?
    Mr. Willens. Yes.
    Senator Bill Nelson. OK, well, given the fact that you 
have, do you understand that that is the standard procedure?
    Mr. Willens. I believe that that is extremely important to 
the committee members, and I saw that that's consistent with 
the actions that range States, and the countries have a great 
influence on what countries do and don't do, depending on how 
they feel, and what they feel they can get done. And it is a 
great benefit to the World Heritage Committee members to know 
the feelings of those Committee members. And, the actions that 
were taken are consistent with that premise.
    Senator Bill Nelson. Were you aware that back in 2006, at a 
meeting of the WHC, that the International Conservation 
Committee adopted benchmarks which, once achieved, were to 
serve as the basis for the United States supporting removal of 
the Everglades from the list?
    Mr. Willens. I am familiar with that, and the benchmarks, 
sir, yes.
    Senator Bill Nelson. Were these benchmarks achieved by 
2007?
    Mr. Willens. All of the benchmarks have not been achieved.
    Senator Bill Nelson. They were not?
    Mr. Willens. No.
    Senator Bill Nelson. Well, that happens to be correct. The 
National Park Service said so, in 2007, that those benchmarks 
had not been met. The GAO report about which we will hear in 
awhile also says that only 2 of the 9 benchmarks have been met. 
Were those benchmarks willfully ignored by you in making the 
decision to take the Everglades off the list?
    Mr. Willens. No; not at all. I'd say there was a healthy 
discussion at the World Heritage Committee about the benchmarks 
and the importance, because we really are the first ones to 
establish benchmarks for World Heritage in danger sites, and 
the World Heritage Center under--with our leadership and our 
expense--is really grateful for us establishing the benchmarks.
    While we recognize--as with the overall restoration of the 
Everglades is not completed, and won't be completed for some 
time, the same goes with the benchmarks, which reflect the work 
that is supposed to be, and being carried out, on the sites, in 
the Everglades and in Florida itself.
    But the Committee's views are not scientific. While they 
take in the recommendations of IUCN advisors, who have 
scientific background and experts, that the Committee itself is 
much more of a policy committee than it is a scientific 
committee, and there's a challenge to that.
    But, the Committee felt that for a long time the United 
States has trail blazed a path for other countries to follow, 
and really set the bar high when it comes to managing our 
natural resources. And this is not different. While we have not 
realized full restoration to the levels that we need to have, 
and that we would all be satisfied with, they look at it a bit 
differently, and see that progress is being made, that money is 
being spent, $7.1 billion to date. And these are numbers and 
figures, sir, that they can't comprehend and therefore, yes, 
that does impress them.
    And we, in no way, hid the fact, or gave the perception 
that everything is done. But, we definitely speak to the fact 
that, yes, progress is being made, it may not be as fast as we 
want it to be, and we may have fits and starts on some of the 
projects, but the commitment and the political resolve is there 
to do that, and we believe that that is accurate.
    And, off of that information--and they have the full record 
of what IUCN wanted to do, they still wanted, unanimously, to 
say, ``Hey, we want to take this off the in danger list. You're 
still a World Heritage site, but we're going to take you off in 
danger.''
    Senator Bill Nelson. And, indeed, you just said that IUCN--
which is a scientific advisory body to the World Heritage 
Committee--one of three advisory bodies to the Committee, 
recommended to the Committee during that New Zealand meeting, 
that the Everglades should be maintained on that endangered 
list, pending that IUCN assessment mission. So, you all decided 
that, rather than rely on the expert scientific recommendation, 
you were going to ignore it, and go ahead and cut it off the 
list?
    Mr. Willens. No; I wouldn't say that that's the case, I 
would say that IUCN presented its recommendation as an advisory 
body, which they get paid to do, by the body, and they 
presented it. But, as is the case with a third of the decisions 
that are made, the Committee makes decisions that are different 
than what IUCN or the other ICOMOS, or ICROM recommend, which 
are the three advisory bodies.
    But, this is not unusual, this happens, in our 
calculations, has happened a third of the time in 
recommendations.
    Senator Bill Nelson. And it was the National Park Service 
that gave the scientific data upon which that IUCN 
recommendation was made that it ought to stay on the list.
    Well, I think it's clear, the point of view that you have 
expressed, and what we wanted to find out is what happened down 
there in New Zealand that is making it difficult for us who 
have the responsibility of continuing to see that the 
Everglades is restored.
    Mr. Willens, it started out as a 20-year, $8 billion 
project. It was going to be funded $4 billion from the Federal 
Government, and $4 billion from the State. Because of the 
delays, because of the Federal Government not coming up with 
its share, because of the escalating cost of construction, the 
project is now expanded out way beyond into the high teens and 
20 years, and is projecting to be costing $20 billion in total. 
For you to make a decision, unilaterally--or with your 
colleagues on this committee--without reaching out to the other 
parts of the United States Government, you are unilaterally 
making it a lot more difficult for other people to keep this 
fight going to restore the Florida Everglades. Do you agree 
that removing the Everglades from the list encourages the 
perception that the Everglades are no longer endangered?
    Mr. Willens. We've come to realize that that's the 
perception in Florida, but when you step back and you look at 
the international perception, which is the case we're dealing 
with here, with the World Heritage Committee, they see it 
differently. And in the context and the debate that they see of 
the work being one, and when they equate it and they compare it 
to sites such as the Democratic Republic of the Congo, and 
other areas, they think Everglades is--while there are 
challenges--that the healthy debate, at least there's debate 
and there's discussion, and engagement to address the issues, 
when in other countries, they can't even get a phone call back 
to recognize there's even a problem.
    It was never our intent, in any way, to make things more 
difficult for you, and the Floridians on this issue. I would 
say that it was definitely seen as a compliment, and hopefully 
was seen as a shot in the arm to get going, and get moving, the 
positive, and move forward on this.
    But it was not seen, and not intended to be negative. And 
from the Committee's perspective, I believe that if they felt 
that the negative was, that if they left it on the site, it 
would have negative implications to other sites throughout the 
world who compete for limited resources under World Heritage in 
danger listed site. While we do not take any international 
funding, it definitely is an attention-grabber, and they 
recognize that, and they were trying to grapple with that.
    And, I believe that we can still go forward without the in 
danger listing, because it has no policy or weight of any 
changing in the laws and commitment here, in the United States. 
It really is a label. While--we recognize that it was an 
important label in 1993, we believe it's served its purpose, it 
no longer needed to be listed as in danger, because the facts 
before us--while we dispute how fast, and how much money we're 
spending, again, we're spending money, and measuring how fast. 
And that was what the goal of listing this in 1993 as in 
danger. We've met that goal.
    Senator Bill Nelson. Have you ever been to the Everglades 
National Park?
    Mr. Willens. Yes.
    Senator Bill Nelson. Have you talked to the Park Director?
    Mr. Willens. I talk to the current Park Director quite a 
bit.
    Senator Bill Nelson. And, does he tell you that the 
Everglades Park is not endangered?
    Mr. Willens. No; he tells me--and he told me a couple of 
hours ago that it is endangered. That it has significant 
environmental challenges, and it's very frustrating. And, I 
commend him and all of the Park Service for sticking it out and 
trying to work through these issues. And that, as far as an 
endangered EN, not related to the World Heritage Committee 
site, it's clear that the scientists and those in the field 
that matter, believe it is endangered, I don't dispute that.
    Senator Bill Nelson. We'll turn to some of the other 
witnesses and the asking of questions, so that we can get a 
comprehensive view of this.
    [The prepared statement of Mr. Willens follows:]

Prepared Statement of Todd Willens, Deputy Assistant Secretary for Fish 
   and Wildlife and Parks, Department of the Interior, Washington, DC

    Thank you, Mr. Chairman, for the opportunity to testify on the 
action taken by the UNESCO World Heritage Committee to remove 
Everglades National Park from its List of World Heritage in Danger and 
on the Department of the Interior's (Department's) role in that action.
    The Department manages more than 3.1 million acres of conservation 
lands in South Florida, which is also home to more than 7 million 
people and a growing economy. Areas managed by the Department include 
Everglades and Biscayne National Parks, Big Cypress National Preserve 
and 16 national wildlife refuges, all of which protect habitat found 
nowhere else.
    The UNESCO Committee, by removing the Everglades National Park from 
the List, has strongly affirmed the commitment and progress of the 
United States in conserving the Everglades ecosystem. Since 2002, the 
State of Florida has spent more than $1.2 billion in conservation 
projects, and the United States has spent more than $1 billion. Florida 
has also spent more than $1.3 billion in land acquisition for future 
Everglades restoration projects. The size of this commitment by the 
United States and Florida is necessary context as we review today the 
significance of the Park's designation by foreign nations. I hope 
today's discussion will inspire the Congress to embrace President 
Bush's budget for the Everglades in fiscal year 2008. I would 
appreciate having my testimony entered into the record. I am also 
submitting certain documents for the record, which are valuable in 
clarifying this issue.
    The World Heritage Convention is one of the world's most important 
international agreements in the field of natural and cultural heritage 
preservation. Created largely through U.S. leadership and significantly 
inspired by the U.S. National Park concept, the Convention has become 
one of the most widely accepted conservation agreement in the world 
with more than 180 participating countries. The United States has 20 
World Heritage Sites, 8 of which are cultural and 12 natural. There are 
more natural sites listed in the United States than from any other 
single country except Australia.
    The Office of the Assistant Secretary for Fish and Wildlife and 
Parks of the Department of the Interior has been delegated 
responsibility on behalf of the Secretary of the Interior to 
coordinate, in cooperation with the State Department, United States 
participation in the World Heritage Convention. This administration 
takes that responsibility very seriously.
    The unanimous decision of the 21-member World Heritage Committee, 
the governing body of the Convention, to remove Everglades National 
Park from the Danger List of World Heritage Sites is the international 
community's way of recognizing the progress that has been made in 
addressing key issues that led to the listing of the Park in 1993. The 
decision recognizes and applauds the unprecedented efforts and 
continuing commitment of South Florida's community, the State of 
Florida and the Federal Government to restore this world-class 
ecosystem. The text of the World Heritage Committee's decision and a 
copy of the UNESCO press release announcing it are attached for your 
information.
    At the recent convention of the parties, we received supportive 
comments on the proposal to remove the Everglades from the list from 
India, Kenya, Lithuania, New Zealand, Israel, Canada, Madagascar, 
Chile, Benin, and Spain during consideration of our petition. This 
reinforced the unanimous sentiment that other nations had spoken in 
private and that the committee later expressed in a unanimous vote.
    Some have misinterpreted the criteria used by UNESCO's World 
Heritage Committee and the administration's concurrence in removing the 
Park from the List. The Committee's decision does not in any way signal 
a lessening of our commitment or an end to the Everglades restoration 
efforts.
    It has also been alleged in the press that I ``changed a National 
Park Service (NPS) report on the matter.'' This is simply not the case. 
(The subject report is being presented to you; it was submitted months 
earlier for the World Heritage Center's staff to use in preparing its 
report to the Committee on sites on the List in Danger. I could not 
change a report that had already been submitted with my concurrence 
months before the meeting.)
    This administration wholeheartedly supports the ongoing national 
initiative to comprehensively restore and preserve the River of Grass 
and its vital ecosystem. To date, the United States and State of 
Florida have spent about $7.1 billion for projects designed to improve 
water quality, increase water supplies, recover threatened and 
endangered species, and restore natural habitat.
    The Government Accountability Office reports that of the 222 
separate Everglades restoration projects that it estimates will cost at 
least $19.7 billion over the next decades, 43 have been completed, 107 
are underway, and 26 are in design or planning phases. The remaining 46 
projects, to be launched in coming years, will complete the current 
restoration plan.
    The Comprehensive Everglades Restoration Plan (CERP), enacted by 
Congress in 2000, is the blueprint for this historic effort, considered 
by many to be the largest and most expensive environmental restoration 
program in the world. The CERP is a $10.5 billion program of large-
scale modifications to the water management infrastructure of South 
Florida, with a targeted completion date of 2038. CERP consists of over 
60 individual project modifications to the regional water supply and 
flood control project to increase water supplies for the environment 
and other users. In addition, the Modified Water Deliveries Project to 
Everglades National Park is underway to restore more natural flows of 
water to Everglades National Park. To date, $303 million has been 
appropriated for this project.
    The South Florida Ecosystem Restoration Task Force, representing 
Federal, State, tribal, and local stakeholders, coordinates projects 
and investments across all levels of government through its strategic 
plan and serves as a focal point for the ongoing collaboration that is 
necessary to undertake the largest watershed restoration program in the 
world. With its partners, the Department is improving water quality and 
restoring more natural flows of water to the Everglades, restoring 
habitat, and recovering endangered species, such as key deer, American 
crocodiles, and others.
    This aggressive restoration strategy, record of accomplishment, and 
demonstration of continuing collaboration and commitment impressed the 
World Heritage Committee and persuaded its members to remove Everglades 
National Park from the Danger List of World Heritage sites. The 
committee had asked U.S. representatives on several previous occasions 
to develop benchmarks for this purpose. In 2006, the committee adopted 
evaluation standards that were crafted in cooperation with the NPS and 
the International Union for the Conservation of Nature and that would 
facilitate consideration of removal of Everglades National Park from 
the List.
    Everglades National Park had been on the Danger List since 1993, at 
the request of the United States, following the devastation wrought by 
Hurricane Andrew and the accumulation of previous threats that 
developed over many years. The designation calls attention to specific 
and imminent threats facing a site and seeks to generate action by the 
responsible government and world community. When the Committee is 
persuaded that actions to address the threats are being taken, it 
customarily removes the site from the List, while fully recognizing 
that additional measures to protect the site must still be taken. The 
Committee acted in a similar manner with respect to the Rio Platano 
Biosphere Reserve in Honduras which was also removed from the List 
though it too continues to face many problems including illegal logging 
within the boundaries of the site.
    It is also useful to consider the Committee's action from a global 
perspective as that is the context in which the World Heritage 
Convention works. The vast majority of the other World Heritage sites 
included on the List are in the developing world, many in countries 
without effective government management systems, or where resources to 
address the problems facing the sites are nonexistent and the 
Committee's resources to assist these sites are quite limited. As I 
stated, the principal purpose of the List is to call attention to such 
problems and mobilize international assistance for these sites. In view 
of that, while acknowledging the serious and long-term threats facing 
the Everglades, the Committee, nonetheless expressed its confidence in 
the ability of the United States to address these issues. There was no 
dissent from Committee members on this action.
    By supporting the Committee's decision to remove the Park from the 
List, this administration was in no way suggesting that the Everglades 
is a fully recovered ecosystem. The challenges facing the Park and the 
River of Grass took decades to create. They will take decades to 
overcome. We will continue to work with the State of Florida and the 
many stakeholders in South Florida to save this irreplaceable natural 
wonder.
    While Everglades National Park has been removed from the List, it 
remains a World Heritage Site, which it has been since 1979, in company 
with other extraordinary places, such as the pyramids of Egypt, the 
wilds of East Africa's Serengeti, and the Great Barrier Reef of 
Australia. The United States will continue to provide annual 
conservation reports to the World Heritage Committee on our progress in 
restoring the Everglades. More specifically, the Committee directed the 
United States to report on progress with respect to the established 
benchmarks. The Committee will continue to evaluate progress in 
achieving these benchmarks; if progress is not being made or if the 
United States does not continue to focus on the long-term effort to 
restore the Everglades, consideration would then be given by the 
Committee to placing Everglades National Park back on the Danger List 
of World Heritage sites.
    The administration has a proud record of accomplishment regarding 
both UNESCO and the World Heritage Convention. Under the President's 
leadership, the United States has, after more than 20 years, once again 
become a full member of UNESCO. In 2005, the United States sought, and 
was elected to, a 6-year term on the World Heritage Committee, a 
significant accomplishment for the United States in any U.N. body. (By 
gentlemen's agreement, Member States relinquish their Committee seats 
after 4 years so that participation is shared.) Over the last 2 years, 
we have been developing a new list of candidate sites in the United 
States which will be considered for future nomination to the World 
Heritage List. The new list, based on applications submitted by 
interested owners, replaces an outdated list originally developed 25 
years ago. We anticipate beginning the nomination process by announcing 
our U.S. Tentative List in 2008. This announcement represents a 
significant reengagement with an important aspect of the World Heritage 
program and would be the first new U.S. nomination submitted since 
1994.
    Supporting the Committee's decision regarding Everglades is 
entirely consistent with the administration's overarching support for 
the World Heritage Program and for the restoration and preservation of 
the Everglades.

[Editor's note.--Attachments to Mr. Willen's testimony and 
prepared statement can be found in the section ``Additional 
Material Submitted for the Record'' at the end of this 
hearing.]

    Senator Bill Nelson. So, Mr. Anderson--Mr. Anderson is the 
Deputy Assistant Secretary, the Bureau of International 
Organization Affairs, in the Department of State. Your written 
testimony will be made a part of the record. Thank you for 
coming.
    Mr. Anderson, could you describe the purpose of the World 
Heritage Committee, and the importance of the list of World 
Heritage sites in danger?

 STATEMENT OF GERALD C. ANDERSON, DEPUTY ASSISTANT SECRETARY, 
  BUREAU OF INTERNATIONAL ORGANIZATION AFFAIRS, DEPARTMENT OF 
                     STATE, WASHINGTON, DC

    Mr. Anderson. Yes. Thank you, Mr. Chairman, for the 
opportunity to be here today.
    The list of World Heritage sites is a list that--whose 
primary purpose is to draw attention to sites, either cultural 
or natural, that have universal value--that's the official term 
that UNESCO uses for this process. And the purpose of the list 
of sites in danger, is to call attention to the need for 
remedial action to deal with situations that might threaten 
that universal value. That is the reason for putting a site on 
the list.
    The meaning of being on the list is for countries that have 
need of outside assistance to fund the remedial action that's 
needed, is that they're eligible to go through the UNESCO World 
Heritage Fund to receive that assistance.
    And the countries who are members of the World Heritage 
Committee look at the list, with that purpose in mind, as they 
add and remove sites from the list at their meetings.
    Senator Bill Nelson. And, would you describe how the 
members of the U.S. delegation to UNESCO's Annual World 
Heritage Committee's meetings are chosen?
    Mr. Anderson. Yes. The members of the delegation are 
chosen, first of all, based on our representation in UNESCO, so 
therefore, our permanent representative, Ambassador Louise 
Oliver is the titular head of the delegation. Although the 
nature of the Committee is as a technical committee, in 
practice, these delegations function with the Ambassador and 
the Interior Department chief representatives serving as 
cochairs. And, the division of labor between them is consistent 
with the mission of the State Department and the mission of the 
Interior Department. With the mission of the State Department 
being to deal with the foreign affairs and international 
aspects of the decisions before the Committee, the relations 
among the various countries represented there, and the Interior 
Department being responsible for substantive decisions about 
sites that are located in the United States and other expert 
opinions.
    Senator Bill Nelson. And, what role does your office play 
in determining the positions that the U.S. delegation to the 
WHC will take on specific sites being considered for addition 
or deletion to the list?
    Mr. Anderson. We review the agenda that is prepared by the 
World Heritage Center, and circulated to all members of the 
Committee in advance of each meeting, and we lead an 
interagency consultation process with the other agencies who 
are interested in this process. And we, as the State 
Department, take the lead on any issue that has a political or 
foreign policy nature.
    For example, the site in Jerusalem at the Temple Mount, or 
the site on the border of Cambodia and Thailand, which was a 
subject of some controversy at the meeting in Christchurch, or 
the Bahai holy places, which were a subject for discussion--all 
of those are examples of sites that have some political and 
foreign policy implications. And, at the end of that 
interagency consultation process, we prepare a guidance cable 
that we send to our mission in Paris that lists specific 
guidance for decisions that are listed on the agenda.
    Senator Bill Nelson. And, did you or others in your office 
have any consultations with this U.S. delegation to the World 
Heritage Committee in New Zealand?
    Mr. Anderson. Yes; we did.
    Senator Bill Nelson. And, did you have discussions with 
regard to the positions that the delegation would take at the 
meeting?
    Mr. Anderson. Yes; we did.
    Senator Bill Nelson. And what are those?
    Mr. Anderson. We discussed the cases that I mentioned----
    Senator Bill Nelson. Did you have any discussions about the 
Florida Everglades?
    Mr. Anderson. No; we did not.
    Senator Bill Nelson. And why was that?
    Mr. Anderson. The reason for that was that in the agenda, 
there was no proposal before us to change the status of the 
Everglades with regard to the list in danger.
    Senator Bill Nelson. Would you or members of your office 
have had access to that draft report?
    Mr. Anderson. Yes.
    Senator Bill Nelson. And you would have seen the conclusion 
of the draft conclusions, which said that the Everglades should 
not be removed?
    Mr. Anderson. Yes.
    Senator Bill Nelson. Were you surprised when it was?
    Mr. Anderson. Frankly speaking, literally, yes. Because I 
heard about it only after the World Heritage Committee made the 
decision.
    Senator Bill Nelson. And what conversations, discussions, 
et cetera, did you have upon learning of that information?
    Mr. Anderson. I learned about it from Ambassador Oliver, 
our Ambassador who was heading the delegation. And, the 
conversation consisted of Ambassador Oliver telling me that 
there was unanimous support in the Committee for removing the 
Everglades from the list, and her impression that this was a 
tribute to the efforts that the United States had made toward 
restoration of the Everglades, and responding to the concerns 
that had been identified in previous reports of the World 
Heritage Committee about the site.
    Senator Bill Nelson. And, do you understand what Mr. 
Willens has explained to the committee that the final 
determination was made that it should be removed from the list, 
as he has stated; is that your understanding?
    Mr. Anderson. Yes; it is.
    Senator Bill Nelson. From your understanding, were the 
normal procedures followed in making that decision?
    Mr. Anderson. The normal procedure for making decisions is 
the State Department and the Interior Department consult, the 
State Department weighs in on any issue with international 
policy implications, the Interior Department addresses domestic 
issues, and in that respect the procedure was followed. 
However, in retrospect, after reviewing the process in this 
case, we have decided that any issue that was not on the agenda 
that we reviewed before developing our guidance should occasion 
our Ambassador reporting back to Washington before making any 
such new decision.
    Senator Bill Nelson. Is that procedure going to be 
corrected in the future?
    Mr. Anderson. Yes, sir.
    Senator Bill Nelson. And who's going to require that, the 
Secretary of State?
    Mr. Anderson. Yes; that authority is delegated to the 
Assistant Secretary for International Organization Affairs.
    Senator Bill Nelson. So, if there were another meeting, if 
this new policy had been in effect, as--you tell me if I'm 
restating correctly what you just said--if the new policy had 
been in effect before the New Zealand meeting, there would have 
been--had to have been--consultations before that draft report 
would have had that one word changed, reversing its entire 
meaning?
    Mr. Anderson. Yes; what would have happened is Ambassador 
Oliver would have probably called me, or Assistant Secretary 
Silverberg, or one of my staff to alert us that there was an 
issue that was not covered in our guidance, and would have 
asked us to provide guidance.
    Senator Bill Nelson. And why have you all decided to 
institute this new procedure?
    Mr. Anderson. We've assessed the reaction to this decision, 
and we've seen that there are some concerns that, we think 
should be addressed, and that we should be fully aware of any 
decision. Even if, you know, had we had consultations with the 
Department of Interior, we believe we probably would have 
arrived at the same result, the same guidance.
    Nevertheless, in order to fully exercise our responsibility 
for providing guidance to the delegations, we have decided to 
adopt this new policy.
    Senator Bill Nelson. And what is the reaction?
    Mr. Anderson. We received a letter from you, Mr. Chairman, 
and we've also had a number of consultations with your staff 
and other members of the committee's staff, that have made that 
point to us.
    Senator Bill Nelson. Is Ambassador Oliver on board with 
these new procedural changes?
    Mr. Anderson. Yes; she is. We've thoroughly discussed them.
    Senator Bill Nelson. And did she say why she did not 
consult with you all in such a major change from the draft that 
had just been done in May 2007?
    Mr. Anderson. Yes; she did.
    Senator Bill Nelson. And what did she say?
    Mr. Anderson. She reviewed our standard operating 
procedures which, as I stated earlier, provide that on an issue 
of substance relating to a site in the United States, we in the 
State Department defer to the Interior Department side of our 
delegation for a decision, and the State Department part of the 
delegation's responsibility is to meet with other countries to 
ascertain whether that decision--whether that proposal would 
meet with their approval or not, and then to make a judgment as 
to whether it's feasible to achieve the decision that we're 
seeking.
    Senator Bill Nelson. The same Ambassador, Ambassador 
Oliver, had explained to our staff that, by tradition, the 
recommendations on the inclusion or deletion of sites on the in 
danger list are always put forth by the country in whose 
territory a site is located. She said to our staff, it would be 
``impossible'' for other countries to make such a 
recommendation. Did the U.S. delegation offer the 
recommendation to remove the Everglades to the WHC?
    Mr. Anderson. Yes. The U.S. delegation did offer that 
recommendation.
    Senator Bill Nelson. And you're aware, in May 2007, that 
the WHC scientific advisors recommended to the Committee that 
the Everglades should stay on the list?
    Mr. Anderson. Yes.
    Senator Bill Nelson. What do you think changed between May 
and June?
    Mr. Anderson. Mr. Chairman, I would make one observation 
that might be helpful to understand the context, and that is, 
at the Committee meeting at Christchurch, there were four sites 
that were removed from the list in danger. And of those four, 
two--in two of the cases--the experts recommended that they be 
retained, and nevertheless, the Committee decided to remove 
them. One of them was the Everglades, and the other one was the 
Rio Platineau site in Honduras. And also, of the four sites 
that were removed, in only two cases were the countries where 
those sites were located actually members of the Committee--the 
United States and Benin. The site in Benin was the Abomey Royal 
Palace.
    And the other two sites, one in Nepal, and the other in 
Honduras--those two countries were not members of the 
Committee, and therefore were not in a position to formally 
make a recommendation themselves. And in those two cases, the 
World Heritage Center conveyed the recommendation of the IUCN, 
with regard to those two sites.
    And that's a slight expansion of the explanation that 
Ambassador Oliver gave you, about who has the ability, 
traditionally, to make those recommendations. Obviously, if 
you're not a member of the Committee, you can't formally do it. 
So, there are--every year, many cases of sites where the 
country is not a member, and the World Heritage Center conveys 
the recommendation to the Committee. But in all of those cases, 
nevertheless, the government of that country is consulted, and 
the--that government's views are still respected, by 
traditional practice.
    Senator Bill Nelson. And so, in this case, by your 
statement there was a recognition that the technical people had 
said that they did not want the Everglades taken off the list?
    Mr. Anderson. Yes; that's correct.
    Senator Bill Nelson. OK. Are you aware that the National 
Park Service had reported that the important benchmarks had not 
been met?
    Mr. Anderson. Yes; I read their report.
    Senator Bill Nelson. And you're aware that the IUCN 
reiterated its support for keeping----
    Mr. Anderson. Yes.
    Senator Bill Nelson [continuing]. The Everglades on the 
list, as well? In your statement, in your written testimony to 
the committee, you note that, ``The international community 
began suggesting upgrading the status of the Park 4 years 
ago.'' Are you referring to the Everglades, taking it off the 
list? Is that what you mean by upgrade?
    Mr. Anderson. That's a reference to suggestions from other 
countries who are members of the World Heritage Committee, 
suggesting to our delegation that the time had come to remove 
the Everglades from the list in danger.
    Senator Bill Nelson. Are suggestions by the international 
community the usual basis for determining these recommendations 
on removing the sites?
    Mr. Anderson. The basis for determining is a decision by 
the Committee. And therefore, the views of the countries that 
are members of the Committee are relevant in making that 
decision.
    Senator Bill Nelson. But, the determination--according to 
Ambassador Oliver--is a determination made by the host country?
    Mr. Anderson. Ambassador Oliver stated that it would be 
impossible for the Committee to make that determination without 
the consent of the country.
    Senator Bill Nelson. So, one has to come before the other?
    Mr. Anderson. Yes; that's correct.
    Senator Bill Nelson. OK. Now, you've made clear in your 
statement, which has been a part of the record, that you refer 
to the Comprehensive Everglades Restoration Plan as, ``arguably 
the world's most ambitious conservation project.'' Given this 
and the U.S. leadership in establishing the World Heritage 
List, do you feel that the opinions of the scientific community 
should have been taken into consideration in removing the 
Everglades from the list?
    Mr. Anderson. Yes; certainly. And they were taken into 
consideration.
    Senator Bill Nelson. But they weren't followed.
    Mr. Anderson. Yes; that's correct.
    Senator Bill Nelson. Well, does that say anything to you 
about the long-term commitment to protecting World Heritage 
sites?
    Mr. Anderson. I think the context of these decisions, and 
as I mentioned, this year, in half of the cases, the Committee 
made a decision contrary to the experts' recommendations--and 
over time the rate is somewhat less than that, but it's quite 
frequent that the recommendations are not followed. And the 
basis on which the Committee makes the decision whether to 
remove or not, is their assessment of the commitment of the 
State, of the country where the site is located, to take the 
remedial action that has been identified as necessary to 
protect the site. And, the decision that was made in 
Christchurch reflects the view of the Committee that the United 
States has made the necessary commitment. And they make that 
determination in the context of the other sites that are on the 
list, and in practice, based on their own rough ranking of the 
efforts to remediate that site, as opposed to the other sites 
that are on the list in danger.
    Senator Bill Nelson. Mr. Anderson, do you have an opinion 
that the Everglades are no longer in danger?
    Mr. Anderson. Mr. Chairman, I'm not a scientist, and making 
judgments about the environmental status of National Parks is 
not part of my responsibility. So, any opinion that I might 
have would be a personal one that would be based on examining 
opinions of experts.
    Senator Bill Nelson. Well, do you want to offer a personal 
opinion?
    Mr. Anderson. I think that I--it would be hazardous to 
offer a personal opinion in this context, but I can tell you 
that I have reviewed the documents that are before us, 
including the report that you had before us from the IUCN and 
the GAO study that we'll be hearing about later, and I think 
it's safe to say that the action that's needed--much of the 
action that's needed has not yet been taken. But, it's 
certainly been identified, it's an issue that the President and 
the Congress have to decide together, how many resources to 
commit to make--put this plan into action.
    Senator Bill Nelson. Well, let me see if you have an 
opinion on this. Do you think that removing the Everglades from 
the danger list creates the perception that the Everglades are 
no longer in danger?
    Mr. Anderson. Mr. Chairman, it certainly does not create 
that perception among the members of the World Heritage 
Committee, the group that actually made that decision. And, if 
you look at the other decisions that were made for removal of 
sites from the list, you'll find that the reports on those 
sites--for example, the site in Honduras, which the experts 
recommended be retained, and which the Committee decided to 
remove--there are a number of very serious concerns that the 
report says the government itself has not even addressed. And 
yet, the Committee decided to remove that site from the list in 
danger.
    Senator Bill Nelson. I wonder if the people in Honduras 
have to pass, for the first time in 7 years, a Water Resources 
Development Act. And I wonder if the people in Honduras have to 
acquire $20 billion of funding for restoration projects for 
their endangered list, over a 20-to-30-year period in the 
future?
    Thank you, Mr. Anderson.
    [The prepared statement of Mr. Anderson follows:]

  Prepared Statement of Gerald Anderson, Deputy Assistant Secretary, 
  Bureau of International Organization Affairs, Department of State, 
                             Washington, DC

    Thank you, Mr. Chairman, for the opportunity to speak to you and 
the subcommittee today. I am proud to report on the recent decision by 
the UNESCO World Heritage Committee to release Everglades National Park 
from the list of the List of World Heritage in Danger. The delegates 
reached this decision unanimously and affirmed their confidence in the 
actions underway by the United States, the State of Florida, and many 
partners to ensure the future of the Park. As I will describe, the 
international community began suggesting upgrading the status of the 
Park 4 years ago and we stand by the decision to do so this year.
    The United States was the first country to sign and ratify the 1972 
Convention Concerning the Protection of the World Cultural and Natural 
Heritage. The United States has strongly supported the World Heritage 
program ever since that time, including the 19 years we were absent 
from UNESCO, from 1985 to 2003. During those years, when the Department 
of State played an observer role in UNESCO, on World Heritage issues, 
the National Park Service represented U.S. interests.
    After the United States rejoined UNESCO, and the United States 
accredited an ambassador as Permanent Representative to UNESCO, the 
Department of State resumed its normal role in cooperating with the 
U.S. Department of the Interior National Park Service in leading U.S. 
delegations to World Heritage Committee meetings. Since 2005, when the 
United States became a member of the World Heritage Committee, the 
Departments of State and the Interior have assumed the role of coheads 
of delegation to that Committee. The Department of the Interior and the 
National Park Service provide leadership as required under the National 
Historic Preservation Act of 1966. The Department of State provides 
overall guidance to our delegations, and has the lead on issues 
relating to UNESCO budget and management, negotiations with foreign 
delegations within the World Heritage Committee, and on foreign policy 
aspects of the World Heritage Committee's work. The World Heritage 
Committee is a technical body, and so we look to the Department of the 
Interior to take the lead on issues involving inscription and 
conservation of World Heritage sites.
    The United States serves as one of the 21 members of the World 
Heritage Committee, which is the governing body of UNESCO's Convention 
Concerning the Protection of the World Cultural and Natural Heritage. 
The United States was elected to a 6-year term in 2005, but as has 
become customary we agreed to serve only 4 years of the 6-year term. 
The principal purpose of the Committee is to identify and help conserve 
the world's most valuable heritage sites.
    The World Heritage Committee meets annually to consider reports on 
the status of existing World Heritage sites and to consider 
recommendations for inscribing new sites on the World Heritage List. 
Properties nominated for inscription on the World Heritage List must 
demonstrate ``outstanding universal value'' by satisfying at least 1 of 
10 formal evaluation criteria. In addition, the Committee maintains a 
list of World Heritage sites threatened by natural disasters or 
political crises. The List of World Heritage in Danger is the first 
step toward loss of World Heritage status. States with World Heritage 
sites on the List in Danger are eligible for emergency relief through 
UNESCO's World Heritage Fund. The United States has never sought 
international assistance for conservation of any of its World Heritage 
sites. It is the position of the United States that a site can be added 
to, or removed from, the list only with the consent of the Member State 
where a site is located.
    The Committee receives independent evaluations from two advisory 
bodies. The World Conservation Union (IUCN) reviews natural sites. 
Evaluations of cultural sites are prepared by the International Council 
on Monuments and Sites (ICOMOS). The World Heritage Committee is not 
bound by the recommendations of the advisory bodies. Not infrequently, 
the Committee's decisions are based on its own understanding of the 
facts, or other considerations. And expert opinion is not always 
unanimous, of course. At its most recent meeting--in Christchurch, New 
Zealand, June 22-July 2, 2007--the Committee's decision to defer 
inscription of a site nominated by Cambodia, the temple of Preah 
Vihear, was contrary to the recommendation of the advisory group. And 
in the case of Rio Platano Biosphere Reserve (Honduras), the World 
Conservation Union recommended that the site be maintained on the List 
in Danger, but the Committee determined that there had been enough 
recent progress to justify its removal.
    The Department of State, in advance of each meeting of the World 
Heritage Committee, conducts interagency consultations with the 
Department of the Interior and other stakeholders based on the agenda 
for the upcoming meeting prepared by UNESCO's World Heritage Center. 
This agenda lists sites which Member States have recommended for 
inclusion in the World Heritage List, and includes the expert opinions 
of the advisory bodies and the Center's recommendations for action. The 
Department of State prepares a guidance document tracking with this 
agenda and providing the U.S. position on each listed item. However, 
Member States are free to introduce new items to the World Heritage 
Committee at the meeting itself, and frequently do so.
    At its recent meeting in Christchurch, the Committee inscribed 22 
new World Heritage sites and also delisted one site. These actions 
bring the total number of World Heritage sites to 851, sponsored by 141 
states parties.
    The Committee revised the List of World Heritage in Danger by 
adding three sites: The Galapagos Islands (Ecuador), Niokolo-Koba 
National Park (Senegal), and Ancient Samarra (Iraq). Four sites were 
removed from the List in Danger: Rio Platano Biosphere Reserve 
(Honduras), Royal Palaces of Abomey (Benin), Kathmandu Valley (Nepal), 
and, as you know, Everglades National Park in Florida (U.S.A.).
    Everglades National Park was inscribed on the World Heritage List 
in 1979 and added to the List of World Heritage in Danger in 1993. In 
1993, the National Park Service, representing the United States, 
requested that the Everglades be so listed. In the past three annual 
sessions of the World Heritage Committee, foreign delegations have, 
with increasing frequency, urged the U.S. delegations in informal 
consultations to seek removal of the Everglades from the List of World 
Heritage Sites in Danger. These delegations have cited the 
Comprehensive Everglades Restoration Plan enacted by Congress in 2000, 
arguably the world's most ambitious conservation project, as the basis 
for such sentiments.
    At the meeting of the World Heritage Committee in Christchurch, 
many foreign delegations again urged the United States to request 
delisting of the Everglades. Our U.S. Ambassador to UNESCO determined 
that support for such an action was sufficient to ensure success, and 
so advised the Department of the Interior members of the delegation. 
The delegation then decided to proceed with a formal request for 
delisting. The advisory group, the World Conservation Union (IUCN), 
noted achievements in preservation and restoration of the Everglades, 
but recommended that the Everglades remain on the List in Danger 
pending further study of the conservation measures underway. However, 
every Committee member who spoke on the issue (India, Kenya, Lithuania, 
New Zealand, Israel, Canada, Madagascar, Chile, Benin, and Spain) 
favored removal of the Everglades from the List in Danger. Several 
Committee members hailed the U.S. effort as a model for other nations. 
A unanimous decision was then taken to remove the Everglades from the 
list. The major practical consequence of the Everglades' removal from 
the List in Danger is that Everglades National Park will be required to 
submit annual reports, gauging progress against certain benchmarks 
established in 2006. The Committee also requested that the United 
States, in consultation with the World Heritage Centre and the IUCN, 
develop a statement of the ``desired state of conservation'' for the 
site. The next U.S. report is due in February 2008.

    Senator Bill Nelson. I would like to call up Ms. Mittal, 
Director of the Natural Resources and Environmental Team of the 
GAO.
    Thank you, and your written statement, as well, will be put 
in the written record of the committee.
    And Ms. Mittal, am I pronouncing that correctly?

  STATEMENT OF ANU K. MITTAL, DIRECTOR, NATURAL RESOURCES AND 
  ENVIRONMENTAL TEAM, U.S. GOVERNMENT ACCOUNTABILITY OFFICE, 
                         WASHINGTON, DC

    Ms. Mittal. Yes; you are, sir.
    Senator Bill Nelson. OK. In an op-ed in the South Florida 
Sun Sentinel, Mr. Willens cites the GAO's report on the South 
Florida ecosystem in support of his decision to remove the 
Everglades from the World Heritage list of sites in danger. And 
of the nine projects that were set for removing the Everglades 
from the danger list, only one of those projects has been 
completed--at most, two. Is that correct?
    Ms. Mittal. Yes; only one has been completed.
    Senator Bill Nelson. What is the status of the other 
projects?
    Ms. Mittal. Four of them are currently being implemented, 
and four are still being designed and planned.
    Senator Bill Nelson. And what is the earliest that those 
projects could be completed?
    Ms. Mittal. The ones that are currently being implemented 
have various completion dates that range between the next 2 to 
5 years. For the ones that are currently being designed and 
planned, they are several decades out. The earliest ones will 
be completed in 2015, the later ones closer to 2035.
    Senator Bill Nelson. You found that the most critical of 
the 222 projects that make up the restoration effort, are 
woefully behind schedule, and in many cases, only in the 
planning stages?
    Ms. Mittal. Yes, sir.
    Senator Bill Nelson. Well, would a reasonable person 
conclude that the Everglades at this point is no longer in 
danger?
    Ms. Mittal. I think it depends on how you measure progress. 
If you measure progress based purely on effort, then some 
people could reach the conclusion that, yes, we're making a lot 
of effort, and that sounds like what happened at the World 
Heritage Committee meeting.
    But, if you look at results, which is what our report 
defines as progress, in terms of what are we getting for the 
effort that we've made, then you would come to a totally 
different conclusion, that we don't know whether the Everglades 
are going to be protected.
    Senator Bill Nelson. I must say, that for the fish and the 
birds, and the alligators and, unfortunately now, the pythons--
which are not indigenous to the Everglades, but which have 
become a real problem--they want results. That's the area 
that's starved of water. Because the water--first of all, 
you've got to get it, and you've got to get it fairly cleaned, 
coming south out of the lake. And then you've got to work on 
restoring as much of Mother Nature's sheet flow that brings it 
in this direction, into Florida Bay, and into the Gulf of 
Mexico. And, therein lies a major problem. So, when you look at 
results, I'll use your word--you would certainly conclude that 
the Everglades are in danger.
    Ms. Mittal. I believe that we are not yet in a position to 
say that we have restored the Everglades, and that the 
restoration will not happen for at least 20, 30, maybe 40 years 
at the rate that we're going.
    Senator Bill Nelson. OK; thank you.
    You also identified that the costs of this restoration 
project are escalating?
    Ms. Mittal. Yes, sir.
    Senator Bill Nelson. Would it be reasonable to conclude 
that the cost to taxpayers--not only in Florida, but all over 
the country--are going to increase if we do not resolve the 
issues responsible for delaying the progress on restoring the 
Everglades?
    Ms. Mittal. Well, the delays have already resulted in a 28-
percent cost increase. As you mentioned earlier, the cost of 
construction has gone up, the cost of acquiring land to 
complete the projects has gone up, and project scope changes 
have caused the cost to increase.
    But, more importantly, all of the costs are not yet 
included in this $20 billion number that you have mentioned, 
because there are a lot of various factors that constitute the 
Everglades Restoration Project that we still don't have numbers 
for. And so, when you start adding those costs as we stated in 
our report, the total costs are going to increase 
significantly, beyond the $20 billion.
    Senator Bill Nelson. And that's what you concluded in this 
report?
    Ms. Mittal. Yes, sir.
    Senator Bill Nelson. Do you have an opinion, having done 
the work on this report, what should be done to ensure that we 
preserve this natural and national treasure for future 
generations?
    Ms. Mittal. Well, the conclusions of our report are, that 
we have to fulfill the commitments that we've made, in terms of 
completing the projects on time--many of the projects are 
delayed, as you have mentioned already. We have to make sure 
that the Federal share of the contribution to the Everglades is 
made up, because right now there's a shortfall, and that's 
primarily on the Federal side, and we have to continue to get 
these projects implemented so that further delays don't result 
in increased costs for the overall project.
    [The prepared statement of Ms. Mittal follows:]

 Prepared Statement of Anu K. Mittal, Director, Natural Resources and 
  Environmental Team, Government Accountability Office, Washington, DC

    Mr. Chairman and members of the subcommittee, we are pleased to be 
here today to participate in your hearing on protecting the Everglades. 
As you know, restoring the South Florida ecosystem is a complex, long-
term effort. This vast region, which is home to a rapidly growing 
population of more than 6 million people and supports a large 
agriculture-, tourism-, and recreation-based economy, also encompasses 
one of the world's unique environmental resources--the Everglades. 
Recognizing the importance of the Everglades, in 1979, the World 
Heritage Committee (WHC) of the United Nations Educational, Scientific, 
and Cultural Organization (UNESCO) included Everglades National Park 
(Park) on its list of world cultural and natural heritage sites of 
importance. However, over the past 100 years, engineering projects 
designed to control floods and supply water to the residents of South 
Florida have diverted water from the Everglades. This alteration of 
water flow, coupled with agricultural and industrial activities and 
urbanization, has jeopardized the ecosystem's health and reduced the 
Everglades to about half of its original size. In light of the 
Everglades deteriorating condition, in 1993 the WHC added the Park to 
its List of World Heritage in Danger sites. These sites are determined 
to be facing serious and specific threats and require major 
conservation efforts.
    In 1996, through the Water Resources Development Act of 1996, the 
Congress formalized the South Florida Ecosystem Restoration Task Force, 
an effort established by Federal agencies in 1993 to stem the 
deterioration of the ecosystem and restore the Everglades to a more 
natural state. The Task Force was expanded to include State, local, and 
tribal representatives and was charged with coordinating and 
facilitating efforts to restore the ecosystem. The restoration effort 
currently consists of 222 projects, which include 60 key projects that 
comprise the Comprehensive Everglades Restoration Plan (CERP), 28 
projects that lay the foundation for the CERP projects (that we refer 
to as CERP-related projects); and 134 projects that are not directly 
related to CERP (that we refer to as non-CERP projects). According to 
WHC and Park documents, 9 of the 222 projects are key to achieving a 
set of benchmarks adopted by the WHC in 2006 that, when met, would lead 
to the removal of the Park from its list of sites in danger.
    Our testimony today focuses on the (1) status of restoration 
projects and their expected benefits, (2) status of projects that are 
key to restoring the health of Everglades National Park, (3) factors 
that influence the sequencing of project implementation, and (4) amount 
of funding provided to the restoration effort since 1999 and the extent 
to which costs have increased. Our testimony is based primarily on our 
May 2007 report \1\ on the status of the South Florida Ecosystem 
Restoration Initiative. In addition, at the request of the 
subcommittee, we reviewed publicly available WHC decision documents 
regarding Everglades National Park's inclusion on the List of World 
Heritage in Danger. We conducted our work in accordance with generally 
accepted government auditing standards.
---------------------------------------------------------------------------
    \1\ ``South Florida Ecosystem Restoration: Restoration is Moving 
Forward, but Is Facing Significant Delays, Implementation Challenges, 
and Rising Costs,'' GAO-07-520 (Washington, DC: May 31, 2007.
---------------------------------------------------------------------------
    In summary, we found the following:

  <bullet> Forty-three of the two hundred and twenty-two projects that 
        constitute the South Florida ecosystem restoration effort have 
        been completed, while the remaining projects are currently 
        being implemented or are in design, being planned, or have not 
        yet started. Many of the completed projects are intended 
        primarily to improve water quality in natural areas or to 
        acquire or improve tracts of land in order to preserve wildlife 
        habitat. The projects now being implemented also emphasize the 
        restoration of wildlife habitat by acquiring or improving land, 
        as well as the construction of key CERP-related projects that 
        will improve water flow to natural areas. The projects not yet 
        implemented are largely CERP projects that are crucial to 
        realizing the restoration's overall goals, but these projects 
        are progressing slowly. Despite the slow progress, agency 
        officials report a number of achievements, such as finalizing 
        key CERP agreements and restoring a more natural water flow to 
        the Kissimmee River which is the headwater of the ecosystem. In 
        addition, because of the continuing delays in implementing 
        critical CERP projects, the state has begun expediting the 
        design and construction of some of these projects with its own 
        resources. The state hopes that its efforts will provide some 
        immediate environmental, flood control and water supply 
        benefits and will help provide some impetus to the larger CERP 
        effort.
  <bullet> Most of the nine projects that were identified by the WHC as 
        being critical to removing Everglades National Park from the 
        list of world heritage sites in danger have not yet been 
        completed. Specifically, only one project has been completed, 
        four are currently being implemented, and four are currently in 
        the planning and design phase. Moreover, the benefits from 
        these projects may not be apparent for many more years. For 
        example, five of the projects have scheduled completion dates 
        from 2012 to 2035.
  <bullet> There are no overarching criteria to ensure that the 222 
        projects that make up the restoration effort are implemented in 
        a sequence that would ensure the achievement of environmental 
        benefits as early as possible and in the most cost effective 
        manner. Instead, implementation decisions for the 162 CERP-
        related and non-CERP projects are largely driven by available 
        funding. The 60 CERP projects--which are critical to 
        successfully achieving the restoration--have sequencing 
        criteria, however, when the agencies developed their sequencing 
        plan for CERP projects in 2005, they did not have key data and 
        other information to fully apply these criteria. Recently, the 
        agencies began revising the CERP project schedules and 
        sequencing plan, but they still do not have the key information 
        needed to fully apply the established criteria. As a result, 
        there is little assurance that the revised sequencing plan, 
        when it is final, will lead to a CERP project implementation 
        plan that will provide restoration benefits as early as 
        possible and in the most cost-effective manner. We recommended 
        that the agencies obtain the information needed to fully apply 
        the required criteria and then comprehensively reassess its 
        sequencing decisions to ensure that the CERP projects have been 
        appropriately sequenced.
  <bullet> Participating Federal and State agencies provided a total of 
        $7.1 billion for the restoration effort from fiscal years 1999 
        through 2006. During this period, the Federal Government 
        contributed about $2.3 billion to the restoration effort and 
        Florida contributed about $4.8 billion. However, the Federal 
        contribution to the effort has been about $1.4 billion less 
        than agencies expected during this period. Because the State 
        has contributed more than its share the overall shortfall for 
        the restoration effort has been about $1.2 billion. At the same 
        time, the total projected cost of the restoration effort has 
        increased by 28 percent--from $15.4 billion in 2000 to $19.7 
        billion in 2006. According to agency officials, the overall 
        cost increases are due to project scope changes, increased 
        construction costs, and higher land costs. Moreover, these cost 
        estimates do not reflect the true cost of the restoration 
        effort, which could be significantly higher because most CERP 
        projects are still in the conceptual phase and their full cost 
        is not yet known.
Background
    The South Florida ecosystem covers about 18,000 square miles in 16 
counties. It extends from the Kissimmee Chain of Lakes south of Orlando 
to Lake Okeechobee, and continues south past the Florida Bay to the 
reefs southwest of the Florida Keys. The ecosystem is in jeopardy today 
because of past efforts that diverted water from the Everglades to 
control flooding and to supply water for urban and agricultural 
development. The central and southern Florida project, a large-scale 
water control project begun in the late 1940s, constructed more than 
1,700 miles of canals and levees and over 200 water control structures 
that drain an average of 1.7 billion gallons of water per day into the 
Atlantic Ocean and the Gulf of Mexico. This construction resulted in 
insufficient water for the natural system and for the growing 
population, along with degraded water quality. Today, the Everglades 
has been reduced to half its original size and the ecosystem continues 
to deteriorate because of the alteration of the water flow, impacts of 
agricultural and industrial activities, and increasing urbanization.
    In response to growing signs of ecosystem deterioration, Federal 
agencies established the South Florida Ecosystem Restoration Task Force 
in 1993 to coordinate ongoing Federal restoration activities. The Water 
Resources Development Act of 1996 formalized the Task Force and 
expanded its membership to include State, local, and tribal 
representatives, and charged it with coordinating and facilitating 
efforts to restore the ecosystem. The Task Force, which is chaired by 
the Secretary of the Department of the Interior, consists of 14 members 
representing 7 Federal agencies, 2 American Indian tribes, and 5 State 
or local governments.\2\
---------------------------------------------------------------------------
    \2\ Representatives from the State's major industries, 
environmental groups, and other stakeholders provide comments to the 
Task Force through public meetings and forums.
---------------------------------------------------------------------------
    To accomplish the restoration, the Task Force established the 
following three goals:

  <bullet> Get the water right. The purpose of this goal is to deliver 
        the right amount of water, of the right quality, to the right 
        places, at the right times. However, restoring a more natural 
        water flow to the ecosystem while providing adequate water 
        supplies and controlling floods will require efforts to expand 
        the ecosystem's freshwater supply and improve the delivery of 
        water to natural areas. Natural areas of the ecosystem are made 
        up of Federal and State lands, and coastal waters, estuaries, 
        bays, and islands.
  <bullet> Restore, preserve, and protect natural habitats and species. 
        To restore lost and altered habitats and recover the endangered 
        or threatened species native to these habitats, the Federal and 
        State governments will have to acquire lands and reconnect 
        natural habitats that have become disconnected through growth 
        and development, and halt the spread of invasive species.
  <bullet> Foster compatibility of the built and natural systems. To 
        achieve the long-term sustainability of the ecosystem, the 
        restoration effort has the goal of maintaining the quality of 
        life in urban areas while ensuring that (1) development 
        practices limit habitat fragmentation and support conservation 
        and (2) traditional industries, such as agriculture, fishing, 
        and manufacturing continue to be supported and do not damage 
        the ecosystem.

    The centerpiece for achieving the goal to get the water right is 
the Comprehensive Everglades Restoration Plan (CERP), approved by the 
Congress in the Water Resources Development Act of 2000 (WRDA 2000). 
CERP is one of the most ambitious restoration efforts the Federal 
Government has ever undertaken. It currently encompasses 60 individual 
projects that will be designed and implemented over approximately 40 
years.\3\ These projects are intended to increase the water available 
for the natural areas by capturing much of the water that is currently 
being diverted, storing the water in many different reservoirs and 
storage wells, and releasing it when it is needed. The cost of 
implementing CERP will be shared equally between the Federal Government 
and the State of Florida and will be carried out primarily by the U.S. 
Army Corps of Engineers (the Corps) and the South Florida Water 
Management District (SFWMD), which is the state authority that manages 
water resources for South Florida.\4\ After the Corps and SFWMD 
complete the initial planning and design for individual CERP projects, 
they must submit the proposed projects to the Congress to obtain 
authorization and funding for construction.
---------------------------------------------------------------------------
    \3\ The original number of individual projects in CERP was 68. In 
addition to these 68, CERP included 6 pilot projects and 3 proposed 
feasibility studies. Since CERP's approval in 2000, the Corps and the 
South Florida Water Management District have reorganized the projects 
to group those that are logically connected into broader projects. For 
example, several projects around Lake Okeechobee have been combined 
into one project. At the time of our report, CERP consisted of 60 
projects, but the total number of projects that make up CERP may 
continue to change as implementation progresses and projects are added, 
combined, divided into multiple parts or phases, or deleted.
    \4\ Although SFWMD is CERP's primary non-Federal sponsor, the 
Florida Department of Environmental Protection as well as three county 
governments and two American Indian tribes also serve as non-Federal 
sponsors for portions of the plan.
---------------------------------------------------------------------------
    In addition to the CERP projects, another 162 projects are also 
part of the overall restoration effort. Twenty-eight of these projects, 
when completed, will serve as the foundation for many of the CERP 
projects and are intended to restore a more natural water flow to 
Everglades National Park and improve water quality in the ecosystem. 
Nearly all of these ``CERP-related'' projects were already being 
designed or implemented by Federal and State agencies, such as the 
Department of the Interior and SFWMD, in 2000 when the Congress 
approved CERP. The remaining 134 projects include a variety of efforts 
that will, among other things, expand wildlife refuges, eradicate 
invasive species, and restore wildlife habitat, and are being 
implemented by a number of Federal, State, and tribal agencies, such as 
the U.S. Fish and Wildlife Service, the Florida Department of 
Environmental Protection (FDEP), and the Seminole Tribe of Florida. 
Because these projects were not authorized as part of CERP and do not 
serve as CERP's foundation, we refer to them as ``non-CERP'' projects.
    Success in completing the restoration effort and achieving the 
expected benefits for the ecosystem as quickly as possible and in the 
most cost-effective manner depends on the order, or sequencing, in 
which many of the 222 projects will be designed and completed. 
Appropriate sequencing is also important to ensure that 
interdependencies among restoration projects are not ignored. For 
example, projects that will construct water storage facilities and 
stormwater treatment areas need to be completed before undertaking 
projects that remove levees and restore a more natural water flow to 
the ecosystem.
    Recognizing the threats that Everglades National Park was facing, 
in 1993, UNESCO's World Heritage Committee (WHC) included the Park on 
its List of World Heritage in Danger. This list includes cultural or 
natural properties that are facing serious and specific threats such as 
those caused by large-scale public or private projects or rapid 
urbanization; the outbreak or the threat of an armed conflict; 
calamities and cataclysms; and changes in water levels, floods, and 
tidal waves. The Park's inclusion on the list resulted from five 
specific threats: (1) Urban encroachment; (2) agricultural fertilizer 
pollution; (3) mercury contamination of fish and wildlife; (4) lowered 
water levels due to flood control measures; and (5) damage from 
Hurricane Andrew, which struck the South Florida peninsula in 1992 with 
winds exceeding 164 miles per hour. In 2006, WHC adopted a set of 
benchmarks that, when met, would lead to the Park's removal from the 
List. According to Park and WHC documents, nine projects that are part 
of the overall restoration effort will contribute to the achievement of 
these benchmarks.
Although Many Restoration Projects Have Been Completed or Are Ongoing, 
        Key Restoration Benefits Are Expected To Come From Projects Not 
        Yet Implemented
    Forty-three of the 222 projects that constitute the South Florida 
ecosystem restoration effort have been completed, while the remaining 
projects are currently being implemented or are either in design, being 
planned, or have not yet started. Table 1 shows the status of the 222 
restoration projects.

                        TABLE 1.--STATUS OF THE 222 RESTORATION PROJECTS BY PROJECT GROUP
----------------------------------------------------------------------------------------------------------------
                                                                                  Not yet implemented
                                                                       In       ----------------------
                                                  Completed      implementation  Planning/   Not yet     Total
                                                                                   design    started
----------------------------------------------------------------------------------------------------------------
CERP.....................................                0                  7           21         32         60
CERP-related.............................               15                 10            3          0         28
Non-CERP.................................               28                 90            2         14        134
                                          ----------------------------------------------------------------------
      Total..............................               43                107           26         46        222
----------------------------------------------------------------------------------------------------------------
Source: GAO analysis of documents provided by Task Force and participating agencies.

    Completed Restoration Projects.--Although 43 of the 222 projects 
have been completed since the beginning of the restoration effort, this 
total is far short of the 91 projects that the agencies reported would 
be completed by 2006.\5\ Nine projects were completed before 2000 when 
the strategy to restore the ecosystem was set. These projects are 
expected to provide benefits primarily in the area of habitat 
acquisition and improvement. Thirty-four projects were completed 
between 2000 and 2006. The primary purposes of these projects range 
from the construction of stormwater treatment areas, to the acquisition 
or improvement of land for habitat, to the drafting of water supply 
plans.
---------------------------------------------------------------------------
    \5\ South Florida Ecosystem Restoration Task Force, ``Coordinating 
Success Strategy for Restoration of the South Florida Ecosystem, Volume 
2'' (Miami, FL: July 31, 2000).
---------------------------------------------------------------------------
    Ongoing Restoration Projects.--Of the 107 projects currently being 
implemented,\6\ 7 are CERP projects, 10 are CERP-related projects, and 
90 are non-CERP projects. Five of the seven CERP projects are being 
built by the State in advance of the Corps' completion of the necessary 
project implementation reports and submission of them to the Congress 
for authorization and appropriations. Nonetheless, some of the CERP 
projects currently in implementation are significantly behind schedule. 
For example, four of the seven CERP projects in implementation were 
originally scheduled for completion between November 2002 and September 
2006, but instead will be completed up to 6 years behind their original 
schedule because it has taken the corps longer than originally 
anticipated to design and obtain approval for these projects. Overall, 
19 of the 107 projects currently being implemented have expected 
completion dates by 2010. Most of the remaining 88 projects are non-
CERP habitat acquisition and improvement projects that have no firm end 
date because the land will be acquired from willing sellers as it 
becomes available.
---------------------------------------------------------------------------
    \6\ Some projects have multiple components, and while the entire 
project cannot be counted as completed, important components of it may 
be finished. Unless all components of the project were complete, we 
counted these projects as being implemented.
---------------------------------------------------------------------------
    Projects Not Yet Implemented.--Of the 72 restoration projects not 
yet implemented--in design, in planning, or not yet started--53 are 
CERP projects that are expected to be completed over the next 30 years 
and will provide important benefits such as improved water flow, 
additional water for restoration as well as other water-related needs. 
In contrast, the other 19 projects include 3 CERP-related and 16 non-
CERP projects, which are expected to be completed by or before 2013. 
Consequently, the full environmental benefits for the South Florida 
ecosystem restoration that the CERP projects were intended to provide 
will not be realized for several decades. Several of the CERP projects 
in design, in planning, or not yet begun, were originally planned for 
completion between December 2001 and December 2005, but instead will be 
completed from 2 to 6 years behind their original schedule. According 
to agency officials CERP project delays have occurred for the following 
reasons:

  <bullet> It took longer than expected to develop the appropriate 
        policy, guidance, and regulations that WRDA 2000 requires for 
        the CERP effort.
  <bullet> Some delays were caused by the need to modify the conceptual 
        design of some projects to comply with the requirements of WRDA 
        2000's savings clause. According to this clause, CERP projects 
        cannot transfer or eliminate existing sources of water unless 
        an alternate source of comparable quantity and quality is 
        provided, and they cannot reduce existing levels of flood 
        protection.\7\
---------------------------------------------------------------------------
    \7\ The sources of water and levels of flood protection that must 
be protected are those that were in existence on the date of WRDA 
2000's enactment--December 11, 2000.
---------------------------------------------------------------------------
  <bullet> Progress was limited by the availability of less Federal 
        funding than expected and a lack of congressional authorization 
        for some of the projects.
  <bullet> The extensive modeling that accompanies the design and 
        implementation of each project in addition to the 
        ``cumbersome'' project review process may have also contributed 
        to delays, as well as stakeholder comment, dispute resolution, 
        and consensus-building that occurs at each stage of a project.
  <bullet> Delays have occurred in completing the CERP-related Modified 
        Water Deliveries to Everglades National Park (Mod Waters) 
        project, which is a major building block for CERP. These 
        delays, in turn, have delayed CERP implementation.

    Given the continuing delays in implementing critical CERP projects, 
the State has begun expediting the design and construction of some of 
these projects with its own resources. The State's effort, known as 
Acceler8, includes most of the CERP projects that were among WRDA 
2000's 10 initially authorized projects, whose costs were to be shared 
by the Federal Government and the State. According to Florida 
officials, by advancing the design and construction of these projects 
with its own funds, the State hopes to more quickly realize restoration 
benefits for both the natural and human environments and to jump-start 
the overall CERP effort once the Congress begins to authorize 
individual projects. The Acceler8 projects include seven that are 
affiliated with CERP and an eighth that expands existing stormwater 
treatment areas. The state expects to spend more than $1.5 billion to 
design and construct these projects by 2011.
Restoration Projects That Would Help Achieve the World Heritage 
        Committee's Benchmarks Will Not Be Completed for Many Years
    Most of the restoration projects that would help Everglades 
National Park achieve the WHC's benchmarks for removing the Park from 
its list of world heritage sites in danger have not been completed. 
According to Park and WHC documents, nine restoration projects were key 
to meeting these benchmarks. Table 2 lists the nine projects, the type 
of project, implementation status, and expected completion date.

    TABLE 2.--STATUS OF NINE RESTORATION PROJECTS KEY TO ACHIEVING THE WORLD HERITAGE COMMITTEE'S BENCHMARKS
----------------------------------------------------------------------------------------------------------------
                                                                                                    Completion
             Project                       Type               Purpose               Stage              date
----------------------------------------------------------------------------------------------------------------
Storm Water Treatment Areas 3/4..  CERP-related.......  Water quality......  Completed..........  2005
East Everglades Addition to        Non-CERP...........  Habitat acquisition  Ongoing............  TBD
 Everglades National Park.                               and improvement.
Everglades Agriculture Area Storm  CERP-related.......  Water quality......  Ongoing............  2010
 Water Treatment Areas Expansion.
Modified Water Deliveries........  CERP-related.......  Water storage and    Ongoing............  2011
                                                         flow.
C-111 (South Dade)...............  CERP-related.......  Water storage and    Ongoing............  2012
                                                         flow.
C-111 Spreader Canal.............  CERP...............  Water quality......  Not yet implemented  2015*
Everglades National Park Seepage   CERP...............  Water storage and    Not yet implemented  2015
 Management.                                             flow.
Water Conservation Area 3--DECOMP  CERP...............  Water storage and    Not yet implemented  2020
                                                         flow.
Central Lake Belt Storage........  CERP...............  Water storage and    Not yet implemented  2035
                                                         flow.
----------------------------------------------------------------------------------------------------------------
Source: GAO analysis of agency provided data.

* SFWMD is expediting the design and construction of this project with its own funds in advance of congressional
  authorization, which may result in earlier completion.

    As table 2 shows, only one of the nine projects has been completed; 
four projects are ongoing and will not be completed until at least 
2012; and four projects are still in planning and design and are not 
expected to be completed until some time between 2015 and 2035.
    In February 2007, the United States prepared a status report for 
the WHC on the progress made in achieving the benchmarks that the 
committee had established for the Park in 2006. Based on its review of 
this progress report, at a benchmarks meeting on April 2-3, 2007, the 
WHC's draft decision was to retain Everglades National Park on the list 
of world heritage sites in danger; to recommend that the United States 
continue its commitment to the restoration and conservation of the Park 
and provide the required financial resources for the full 
implementation of the activities associated with CERP. WHC's draft 
decision also requested that the United States provide an updated 
report by February 1, 2008, on the progress made toward implementation 
of the corrective measures. However, at the WHC session held between 
June 23 and July 2, 2007, the WHC decided to remove the Park from the 
list of world heritage sites in danger and commended the United States 
for the progress made in implementing corrective measures. In its final 
decision, the WHC encouraged the United States to continue its 
commitment to the restoration and provide the required financial 
resources for the full implementation of the activities associated with 
CERP. It is unclear from the WHC final decision document whether any 
additional or new information was provided to the committee that led to 
its final decision.
The Overall Restoration Effort Has No Sequencing Criteria and Criteria 
        Established for CERP Projects Have Not Been Fully Applied
    No overall sequencing criteria guide the implementation of the 222 
projects that comprise the South Florida ecosystem restoration effort. 
For the 60 CERP projects there are clearly defined criteria to be 
considered in determining the scheduling and sequencing of projects. 
However, the corps has not fully applied these criteria when making 
CERP project sequencing decisions, because it lacked key data such as 
updated environmental benefits data and interim goals. As a result the 
corps primarily relied on technical interdependencies and availability 
of funding as the criteria for making sequencing decisions.\8\ The 
corps has recently started to revisit priorities for CERP projects and 
alter project schedules that were established in 2005 (this process is 
referred to as CERP-reset). However, because the corps continues to 
lack certain key data for making sequencing decisions, the revised 
plan, when completed, will also not fully adhere to the criteria.
---------------------------------------------------------------------------
    \8\ An agreement establishing interim goals was signed by the 
Departments of the Army and the Interior and the State of Florida in 
late April/early May 2007.
---------------------------------------------------------------------------
    Although CERP-related projects provide the foundation for many CERP 
projects, there are no established criteria for determining their 
implementation schedule and their estimated start and completion dates 
largely depend upon when and if the implementing agency will have 
sufficient funding to implement the project. For example, the 
construction of the Mod Waters project has been delayed several times 
since 1997 because, among other things, Interior did not receive enough 
funding to complete the construction of this project. This project is 
expected to restore natural hydrologic conditions across 190,000 acres 
of habitat in Everglades National Park and assist in the recovery of 
threatened and endangered plants and wildlife. The completion date for 
the Mod Waters Project has slipped again and it is now not expected to 
be completed until 2011. Because completion of this project is critical 
to the implementation of other CERP projects such as the Water 
Conservation Area 3 Decompartmentalization and Sheetflow Enhancement 
(Decomp) project--a project that many agency officials consider key to 
restoring the natural system--these delays will have a ripple effect on 
the completion date of this project as well.
    Similarly, for non-CERP projects, agencies reported that they do 
not have any sequencing criteria; instead, they decide on the 
scheduling and timing of these projects primarily if and when funding 
becomes available. For example, Florida has a land acquisition program 
to acquire lands for conservation and habitat preservation throughout 
the state, including for some non-CERP projects that are part of the 
South Florida ecosystem restoration effort. State officials have 
identified lands and added them to a list of priority projects proposed 
for acquisition throughout the State. However, whether or not these 
lands will be acquired for non-CERP projects depends on whether there 
is available funding in the annual budget, there are willing sellers, 
and the land is affordable based on the available funding.
    Because of the correct sequencing of CERP projects is essential to 
the overall success of the restoration effort, we recommended that the 
corps obtain the data that it needs to ensure that all required 
sequencing criteria are considered and then comprehensively reassess 
its sequencing decisions to ensure that CERP projects have been 
appropriately sequenced to maximize the achievement of restoration 
goals. The agency agreed with our recommendation.
Federal Agencies and Florida Have Provided More Than $7 Billion for 
        Restoration Activities Since 1999, But Estimated Costs Have 
        Increased and Are Likely to Rise
    From fiscal year 1999 through fiscal year 2006, Federal and State 
agencies participating in the restoration of the South Florida 
ecosystem provided $7.1 billion for the effort. Of this total, Federal 
agencies provided $2.3 billion and Florida provided $4.8 billion. Two 
agencies the Corps and Interior--provided over 80 percent of the 
Federal contribution. As figure 1 shows, Federal and State agencies 
allocated the largest portion of the $7.1 billion to non-CERP projects 
for fiscal years 1999 through 2006.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    While Federal agencies and Florida provided about $2.3 billion 
during fiscal years 1999 through 2006 for CERP projects, this amount 
was about $1.2 billion less than they had estimated needing for these 
projects over this period. This was because the Federal contribution 
was $1.4 billion less than expected. This shortfall occurred primarily 
because CERP projects did not receive the congressional authorization 
and appropriations that the agencies had expected. In contrast, Florida 
provided a total of $2 billion over the period, exceeding its expected 
contribution to CERP by $250 million, and therefore making up some of 
the Federal funding shortfall.
    Additionally, between July 31, 2000, and June 30, 2006, the total 
estimated cost for the South Florida ecosystem restoration grew from 
$15.4 billion to $19.7 billion, or by 28 percent. A significant part of 
this increase can be attributed to CERP projects; for these projects 
costs increased from $8.8 billion to $10.1 billion. This increase 
represents nearly 31 percent of the increase in the total estimated 
cost for the restoration. Agency officials reported that costs have 
increased for the restoration effort primarily because of inflation, 
increased land and construction costs, and changes in the scope of 
work. Furthermore, the costs of restoring the South Florida ecosystem 
are likely to continue to increase for the following reasons:

  <bullet> Estimated costs for some of the projects are not known or 
        fully known because they are still in the design and planning 
        stage. For example, the total costs for one project that we 
        examined--the Site 1 Impoundment project--grew by almost $36 
        million; from about $46 million to about $81 million after the 
        design phase was completed. If other CERP projects, for which 
        initial planning and design have not yet been completed, also 
        experience similar increases in project costs, then the 
        estimated total costs of not only CERP but the overall 
        restoration effort will grow significantly.
  <bullet> The full cost of acquiring land for the restoration effort 
        is not known. Land costs for 56 non-CERP land projects, 
        expected to total 862,796 acres, have not yet been reported. 
        According to State officials, Florida land prices are 
        escalating rapidly, owing primarily to development pressures. 
        Consequently, future project costs are likely to rise with 
        higher land costs. Similarly, while land acquisition costs for 
        CERP projects are included as part of the total estimated 
        project costs, thus far, the State has acquired only 54 percent 
        of the land needed for CERP projects, at a cost of $1.4 
        billion. An additional 178,000 acres have yet to be acquired; 
        the cost of these purchases is not yet known and is therefore 
        not fully reflected in the cost of CERP and overall restoration 
        costs.
  <bullet> The cost of using new technologies for the restoration 
        effort is unknown. The Congress authorized pilot projects in 
        1999 and 2000 to determine the feasibility of applying certain 
        new technologies for storing water, managing seepage, and 
        reusing treated wastewater. While the pilot projects have been 
        authorized, the cost to construct or implement projects based 
        on the results of the pilot projects is not yet known.

    In conclusion, Mr. Chairman, our review of the South Florida 
Ecosystem restoration effort shows that the some progress has been made 
in moving the restoration forward. However, the achievement of the 
overall goals of the restoration and ultimately improvements in the 
ecological condition of Everglades National Park depends on the 
effective implementation of key projects that have not progressed as 
quickly as was expected. Moreover, the shortfall in Federal funding has 
contributed to some of these delays and at the same time the costs of 
the restoration continues to increase and we believe could rise 
significantly higher than the current estimate of almost $20 billion. 
In light of these concerns, we believe that restoring the South Florida 
Ecosystem and Everglades National Park, will continue to be a 
significant challenge for the foreseeable future.

    Senator Bill Nelson. Time, cost, delay of time, 
implementation of the plan.
    Mr. Willens, do you understand why people such as the 
people of Florida are so upset at you unilaterally taking the 
Florida Everglades National Park off the list of in danger 
sites?
    Mr. Willens. I understand the concerns and the challenges 
that the Everglades have. And the conclusion that GAO has come 
to are completion, they're evaluating completion of the 
projects. The World Heritage Committee is not evaluating 
completion. They're evaluating what they put it on for as an in 
danger site. And, I know it is a very difficult, and not easy 
for the general public to understand what the World Heritage 
Committee's purpose is, and what their goal was with in danger, 
which is, you know, it works in an obscure thing that's not 
everyday front page, and really not in the history books, but 
their purpose is different than what GAO's study was. And GAO 
worked at what, and came to evaluations on projects and 
completions. And the World Heritage Committee was, ``What 
progress has begun? And what discussions are going forward?'' 
And their evaluation was a different metric.
    Senator Bill Nelson. But, you heard Ms. Mittal representing 
a very prestigious and accurate GAO, say that only one of nine 
benchmarks has been achieved. And you don't think that is 
worthwhile to take this into consideration when deciding 
whether or not something should be on the endangered list?
    Mr. Willens. Well, the Committee was aware that it--again, 
they felt their decision, that progress has been made. And 
obviously, they felt, and viewed that what's being done, was--
satisfied the criteria for removing it from in danger. 
Otherwise, they would not have done it. And, I note, they did 
it unanimously.
    It's not the first time that we have had a site removed 
from in danger. Yellowstone was removed several years ago. And, 
so we're aware that the Committee spends a lot of time and 
serious debate, and doesn't take these issues lightly, as that 
was the case here. Yellowstone had its own controversy at the 
time it was brought up. So, we don't take this action lightly, 
and I don't think the Committee took it lightly, but they did 
take it unanimously.
    Senator Bill Nelson. Well, it sounds like--to this 
Senator--that the Committee is Todd Willens, making the 
recommendation to take it off.
    Ms. Mittal, what's your opinion about a statement that 
removing the Everglades from the list encourages the perception 
that the Everglades are no longer in danger?
    Ms. Mittal. I believe that, unless people understand the 
full context of how sites get on the World Heritage Committee 
list, and how they get off the list, that statement could cause 
a perception that somehow the Everglades are not in danger 
anymore.
    Senator Bill Nelson. Mr. Willens, the staff has reminded me 
that when you met with the staff that you told them that if you 
had not made the motion to remove the Everglades from the list 
that another country would have. Do you want to clarify that 
statement to the staff?
    Mr. Willens. Well, we were approached before the meeting, 
or before the issue came up at the meeting, and I mean, the 
idea did not originate from us, I have to say, it was after 
negotiations and discussions with the other countries. And 
there were a number of countries at the time that said they 
were willing to make the motion. And--that as long as the 
United States didn't object. And, at that point, that's when we 
took responsibility and said, if, you know, after--we could 
have taken the easy way out and let some other country do it 
for us. But that's not responsible leadership, and so we did 
it, believing that it was the right action to be taken, we did 
it ourselves.
    Senator Bill Nelson. Well, isn't that interesting, because 
Ambassador Louise Oliver said the opposite. She explained in a 
meeting with our staff that the recommendations on inclusion or 
deletion are put forth by the country in whose territory the 
site is located. So, there seems to be a conflict there, does 
there not?
    Mr. Willens. Well, that's actually not the case. Because in 
the case of Yellowstone, which history shows, if you go back on 
the record, we weren't on the Committee, we were an observer. 
And we relied on another country to make a motion to remove 
Yellowstone from in danger. While we were recognized to speak 
later, we didn't have the authority as a member of the 
Committee to take the motion forward. So, I would say that for 
purposes of clarification, then the case of Yellowstone, it's 
extremely evident and related back to the United States, that 
from previous history that that's not the case, and I think 
Louise--something may have been lost in the long-distance 
conversation there over the phone, but I would say that we--and 
I think she wouldn't disagree--that if we had a conversation, 
and we talked about Yellowstone, that shows you right then and 
there, that our previous experience with removal from in danger 
was, we weren't on the Committee, we didn't make the motion, 
but it still was removed from in danger.
    Senator Bill Nelson. Well, there's definitely a conflict 
between the two of you, because she said, and I'm using her 
words----
    Mr. Willens. Sure.
    Senator Bill Nelson [continuing]. That it was impossible 
for other countries to make such a recommendation.
    Mr. Willens. I would have to talk to Louise, and we can get 
back to you and clarify that and get that straight for you, for 
the record.
    Senator Bill Nelson. We will ask her directly.
    Mr. Willens. OK.
    Senator Bill Nelson. Thank you all for your participation. 
I think it is clear that the Florida delegation has an 
obligation to keep this process going forward, on restoring the 
Everglades, we are committed to that. And whenever there is an 
outside threat, as we have seen, we need to get to the bottom 
of it. And then try not to let it deter us from what Ms. Mittal 
has described as a very long, and a very expensive process of 
restoration of one of the world's greatest natural treasures.
    Thank you, and the meeting is adjourned.
    [Whereupon, at 4:20 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


    Attachments Submitted by Deputy Assistant Secretary Todd Willens

                 [UNESCO Press Release, June 24, 2007]

   Florida Everglades and Rio Platano Biosphere Reserve Removed From 
                              Danger List

  the 31st session of the world heritage committee, christchurch, new 
                             zealand (2007)
    The World Heritage Committee has decided that improvements in the 
preservation of the Everglades National Park (Florida, USA) and Rio 
Platano Biosphere Reserve (Honduras) were sufficient to remove both 
UNESCO World Heritage sites from the List of World Heritage in Danger.
    The Committee commended the United States of America for its 
investment of scientific and financial resources to rehabilitate the 
site which was inscribed on the World Heritage List in 1979 and on the 
Danger List in 1993. Described as a river of grass flowing 
imperceptibly from the hinterland into the sea, the Everglades' 
exceptional variety of water habitats has made it a sanctuary for a 
large number of birds and reptiles, including threatened species such 
as the manatee. It had been threatened by urban growth and pollution, 
as well as by the damage caused to Florida Bay in 1992 by Hurricane 
Andrew.
    The Committee also welcomed the corrective measures taken by the 
Honduran authorities to preserve the Rio Platano Biosphere Reserve, 
that was inscribed on the World Heritage List in 1982 and on the Danger 
List in 1996. These corrective measures, recommended by the World 
Conservation Union (IUCN) 11 years ago, were destined to relieve the 
site--one of the few remaining tropical rainforests in Central America, 
home to an abundant and varied plant and wildlife--of encroachment by 
agriculture, timber trade and hunting.
    The World Heritage Committee, meeting for its 31st session in 
Christchurch, made this decision on Sunday as it started reviewing the 
state of conservation of sites inscribed on UNESCO's World Heritage 
List, which totals 830 sites, 31 of which were on the List of World 
Heritage in Danger before the start of this session. Inclusion on the 
Danger List is intended to mobilize support for sites whose outstanding 
universal value is under threat.
                                 ______
                                 

  Everglades National Park 2007 Site Monitoring Report With Steps and 
                      Benchmarks--February 1, 2007

    This report provides an update on specific accomplishments in 
efforts to address previously identified threats to the outstanding 
universal values of Everglades National Park (Park). This Report also 
provides clear Benchmarks, developed in cooperation with IUCN and 
approved by the World Heritage Committee in Decision 30 COM 7A.14 taken 
at the 30th Session (Lithuania), which when met, would facilitate the 
removal of Everglades National Park from the List of World Heritage in 
Danger.
Threat 1. Alterations of the Everglades National Park hydrological 
        regimes (quantity, timing, and distribution of Shark Slough 
        inflows)
    Status: The requested Federal appropriations for the current fiscal 
year (FY 2007) include approximately $253 million for a comprehensive 
array of South Florida ecosystem restoration projects. Of the $253 
million, just over $48 million has been requested to continue 
construction of the Modified Water Deliveries Project (Mod/Waters) and 
another $11 million of the $253 million have been requested by the 
National Park Service (NPS) to support other ecosystem restoration 
objectives.
    The Everglades National Park Protection and Expansion Act of 1989 
authorized the addition of 109,600 acres of the critical Northeast 
Shark Slough basin to the Park. The Act also directed the U.S. Army 
Corps of Engineers (Corps) to improve water deliveries to Everglades 
National Park and, to the extent practicable, take steps to restore the 
natural hydrologic conditions in the Park. The Corps is continuing its 
efforts to increase water flows into the Park's largest drainage basin, 
Shark Slough.
    The most significant near-term efforts to restore water flows into 
the Park are tied to the completion of the Mod/Waters Project, which 
consists of three general components: (1) The 8.5 Square Mile Area 
Flood Mitigation project, which will control seepage losses from 
Northeast Shark Slough and mitigate for any increased water flows on 
adjacent developed lands; this component is scheduled for completion in 
May, 2008; (2) Construction of water conveyance features to promote 
sheetflow of water through the upstream Water Conservation Areas and 
into Northeast Shark Slough; this component is scheduled for completion 
by November, 2010; and (3) the reconstruction of the Tamiami Trail 
(U.S. 41) which will raise the road bed and bridge 3 miles of the 
Northeast Shark Slough basin to improve flow distributions into the 
eastern portion of the Park; this component is scheduled for completion 
by November 2011.
    Cost estimates to complete the remaining Mod/Waters project 
features have increased by approximately $196 million since the 2006 
status report due principally to significantly higher construction 
costs. In 2005, the Federal Government made a determination that all 
remaining Mod/Waters costs will be split equally between the Corps and 
NPS. Currently projected appropriations are considered to be adequate 
to complete all three of the project components by November 2011.
    The Corps recently initiated an Environmental Impact Statement 
(EIS) for the development of the Combined Structural and Operational 
Plan (CSOP), which will provide a water control plan for operation of 
the Mod/Waters and C-111 Project features. This plan will replace the 
current Interim Operating Plan (IOP) that was specifically designed to 
address the recovery of the endangered Cape Sable Seaside Sparrow. The 
Corps expects to complete this CSOP water control plan by January 2008. 
The EIS for the Combined Structural and Operational Plan will also 
describe the final design for the Mod/Waters conveyance features to 
move additional water through the upstream Water Conservation Areas and 
into Northeast Shark Slough.
    Benchmark 1A: All East Everglades Land Acquisition complete 
(approximately 44,000 hectares). Land Acquisition is approximately 98 
percent complete. The key remaining lands occur along Tamiami Trail, 
and are expected to be acquired during 2007 as part of the roadway 
construction project.
    Benchmark 1B: Complete Water Control Plan (CSOP Final EIS) and 
completion of 8.5 Square Mile Area Construction. The CSOP EIS and water 
control plan are scheduled for completion in January 2008, while the 
remaining 8.5 SMA features are scheduled for completion in May 2008.
    Benchmark 1C: Construction projects for the L-67A & L-67C and L-29 
water conveyance structures, Tamiami Trail Bridges, and road 
modifications are all underway. Construction of the Tamiami Trail 
roadway improvements is scheduled to begin in March 2008. Construction 
of the conveyance features along L-67A & L-67C is scheduled to begin in 
December 2008, while construction of the L-29 conveyance improvements 
will begin in January 2009.
Threat 2: Adjacent urban and agricultural growth (flood protection and 
        water supply requirements that affect ENP resources by lowering 
        water levels)
    Status: In the 1989 ENP Protection and Expansion Act, Congress 
authorized a re-evaluation of the C-111 project features to address the 
need for hydrologic restoration in the Taylor Slough and Eastern 
Panhandle watersheds, as a result of lowered water levels in the L-31N 
and C-111 canals, located along the Park's eastern boundary. In 1994, 
the Army Corps completed a C-111 General Reevaluation Report (GRR) 
recommending a series of modifications that would limit groundwater 
losses from the Park and restore a more natural water flow regime 
through Taylor Slough and into Northeastern Florida Bay.
    The Corps 2002 revised C-111 plan recommended a series of three 
pump stations (S-332B, S-332C, and S-332D) and associated water 
detention areas that would maintain the currently authorized levels of 
flood protection for adjacent agricultural areas, while limiting 
groundwater losses from ENP wetlands. By 2006, the majority of the C-
111 project features were completed, while construction of the central 
detention area (adjacent to the S-332C pump station) was delayed by a 
required land exchange between the NPS and the South Florida Water 
Management District. This land exchange was completed in 2006, and all 
remaining C-111 project features are scheduled for completion by 
November 2011.
    The Park occupies portions of three adjacent counties, with the 
majority of its land areas in Miami-Dade (M-D) County. The County has a 
total of 1,965 square miles, of which 373 are urbanized and 393 are 
agricultural and other open space. The remainder is within the Park. M-
D County planners have estimated an annual population growth rate of 
more than 3 percent within southern Miami-Dade, with a projected need 
to construct over 204,000 new dwelling units on the private lands 
between Everglades and Biscayne National Parks. M-D planners anticipate 
30,000 new residents in the area each year, reaching 600,000 additional 
people by 2025 and 1.2 million by 2050.
    To date, intensive residential development has largely been 
confined within an Urban Development Boundary (UDB) that was 
established by M-D County in 1975. The NPS has continued to work 
closely with M-D County and regional land and water management agencies 
as part of a South Miami-Dade Watershed Study, which is scheduled for 
completion in early 2007. The current preferred plan for the Watershed 
Study would place all of the projected new dwelling units needed 
through 2025 (102,000 units) inside the UDB, and 60 percent of the new 
dwelling units within the UDB after 2026, in order to preserve the 
County's remaining wetlands, farmlands, and open space. If this 
approach is approved by the Miami-Dade Board of County Commissioners, 
most of the farmland and open space adjacent to Everglades National 
Park would remain in place, greatly reducing the pressure to further 
lower canal water levels, thereby protecting the wetlands and natural 
habitats within the Park.
    Benchmark 2A: Complete C-111 land exchange between the South 
Florida Water Management District and the U.S. Government. Congress 
approved the land exchange in a 2006 appropriations bill, and all lands 
needed to complete the C-111 detention areas are now in place.
    Benchmark 2B: Complete Water Control Plan (CSOP Final EIS). The 
CSOP EIS and water control plan are scheduled for completion in January 
2008.
    Benchmark 2C: Complete the construction of the C-111 detention area 
features from the 8.5 Square Mile Area to the Frog Pond. All of the 
detention areas included in the Mod/Waters and C-111 projects are 
scheduled for completion by November 2011.
Threat 3. Increased nutrient pollution from agricultural activities
    Status: In 1991, the U.S. Government and the State of Florida 
entered into a Consent Decree to resolve longstanding water quality 
concerns related to Everglades phosphorus enrichment as a result of 
stormwater runoff from the Everglades Agricultural Area. Interim and 
long-term phosphorus limits have been established for water flowing 
into Shark River Slough and the Taylor Slough/Coastal Basins of 
Everglades National Park, with long-term compliance required by 
December 31, 2006. Regular monitoring activities and reporting continue 
to document a general trend of reductions in phosphorous levels for 
waters discharged into the Everglades.
    Despite extensive efforts to lower phosphorus levels in the waters 
that enter the Park, recent data published by the South Florida Water 
Management District indicate that inflows to Everglades National Park 
in Shark River Slough meet the interim phosphorus limits but are 
extremely close to or exceed the long-term phosphorus limits. 
Phosphorus levels are expected to decline with full operation of 
Stormwater Treatment Area 3/4, the largest of the upstream constructed 
filtering marshes north of Everglades National Park. Phosphorus levels 
are expected to be further reduced as a result of the State of 
Florida's ``Acceler8'' initiatives that will create additional filter 
marshes that serve as stormwater treatment and impoundment areas.
    Benchmark 3A: Meet or exceed the interim and long-term phosphorus 
reduction limits for water flowing into Shark River Slough and the 
long-term phosphorus reduction limits for water flowing into the Taylor 
Slough/Coastal Basins in Everglades National Park. For the Water Year 
beginning October 1, 2005, and ending September 30, 2006, the 12-month, 
flow-weighted average total phosphorus discharge concentration for 
Shark River Slough was 8.7 parts per billion. The interim total 
phosphorus limit for that period was 10.3 ppb, and the long-term limit 
(in effect after December 31, 2006) was 8.8 ppb. Although compliance 
with the limit is determined once per year at the end of the Water 
Year, the 12-month, flow-weighted average discharge concentrations are 
compared to the limit monthly. In this past Water Year, the monthly 
averages for Shark Slough were above the long-term limit for 10 of the 
12 months, with only the August and September monthly values falling 
below the long-term limit. Although the long-term limits were not in 
effect, these monthly values above the limit illustrate the need for 
continued progress to improve the quality of waters entering Everglades 
National Park's Shark River Slough.
    For the Water Year beginning October 1, 2005, and ending September 
30, 2006, the 12-month, flow-weighted mean total phosphorus discharge 
concentration from Taylor Slough and the Coastal Basins was 5.7 parts 
per billion. There is no interim limit for these inflows, and the long-
term limit effective on December 31, 2006, is 11.0 ppb. This value 
shows that water quality presently entering Taylor Slough and the 
Coastal Basins is well below the long-term limit, which has been the 
case for many years.
Threat 4: Protection and management of Florida Bay
    Status: Expanding development along the lower east coast of Florida 
has led to massive diversions of stormwater into the Atlantic Ocean, 
and away from the southern Everglades. These diversions reduced fresh 
water inflows to Florida Bay resulting in increased salinity, 
especially in the nearshore embayments of central Florida Bay. 
Hypersalinity and associated diseases in the early 1990's led to the 
die-off of sea grasses, elevated nutrients and algae blooms, and 
reduced estuarine productivity needed for successful reproduction of 
both Everglades's wading birds and marine shorebird communities. Plans 
to increase water deliveries to Florida Bay and improving the quality, 
timing, and distribution of flows into the Bay are focused on water 
management improvements to Taylor Slough. By diverting water back 
toward the marshes of Taylor Slough, and filling the lower end of the 
C-111 Canal, more freshwater will flow into central Florida Bay, 
reducing salinities and restoring estuarine productivities.
    The first phase of this restoration effort is the completion of the 
ongoing C-111 Project, and the S-332 pump stations and detention areas 
needed to reduce groundwater losses and store and treat canal waters 
prior to their entering Everglades National Park. The next phase is the 
construction of the C-111 Spreader Canal project that will fill in 
portions of the lower C-111 canal eliminating direct discharges to 
Barnes Sound, and restoring a more natural sheet flow through the 
marshes in the Park's Eastern Panhandle. The construction of the C-111 
Spreader Canal will allow flood waters to be distributed over a broader 
area of wetlands upstream of Florida Bay instead of directly shunting 
flood waters into the estuaries of Barnes Sound.
    Benchmark 4A: Complete the construction of the C-111 Detention Area 
features from the 8.5 Square Mile Area to the Frog Pond and implement 
CSOP operations. This construction is scheduled for completion by 
November 2011.
    Benchmark 4B: Complete the C-111N Spreader Canal and revised 
operations. The first phase of this project (Acceler8 component) is 
scheduled for completion by December 2008. The second phase, part of 
the Comprehensive Everglades Restoration Plan (CERP) is scheduled for 
completion by June 2012.
                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                  <all>

</pre></body></html>
